Semiannual Report
 to the Congress
October 1, 1994 - March 31, 1995




   U.S. General Services Administration
        Office of Inspector General
         Foreword

This report, submitted pursuant to the Inspector General Act of 1978,
as amended, summarizes the activities of the Office of Inspector
General (OIG) for the 6-month reporting period that ended March 31,
1995. It is the thirty-third report to the Congress since the appoint-
ment of the Agency's first Inspector General. As detailed below, this
has been an extraordinary period for both the OIG and the General
Services Administration (GSA) as a whole.

GSA began the reporting period with a number of reinvention efforts
already well underway. In November, national elections brought in a
new Congressional leadership with an aggressive agenda to reduce
Government. In December, the President unveiled his plan to
accelerate reinvention efforts by significantly downsizing and
restructuring several agencies, including GSA. As a result of the
President's announcement, in January the OIG and GSA launched
separate new reviews to assess GSA's reinvention options.

OIG and GSA Respond to National Performance Review
In early 1993, the National Performance Review (NPR) was initiated
with the objective of giving the American people a Government that
works better and costs less. All Federal agencies, including GSA,
began to seek ways to fulfill mission requirements more effectively
while at the same time reducing staff and lowering expenditures. To
the credit of the Administrator and his management team, GSA has
been on the leading edge of this revolution. GSA recognized that
change was imminent and that it needed to thoroughly reexamine
every aspect of its operations and delivery systems. Guided by the
principles established by the NPR, the Agency also set out to create a
system in which new ideas and approaches could be tested and
evaluated. Known as reinvention labs, pilot projects were established
throughout the Agency to provide an environment conducive to
experimentation.

The NPR also called upon the OIGs across Government to broaden
their traditional focus and encouraged the OIGs to build better
relationships with their agencies' management based on a shared
commitment to improving program operations and effectiveness. The
President's Council on Integrity and Efficiency formulated a new
Inspectors General Vision Statement which reaffirms our commit-
ment to improve the economy, efficiency, and effectiveness of our
agenCies and to prevent and detect fraud, waste, and abuse. The
statement sets forth reinvention prinCiples designed to maximize the
effectiveness of the OIGs by stressing the importance of enhanced
working relationships within the OIG community and with agency
management and the Congress.

Several years ago, the OIG embarked upon a program to enhance the
effiCiency and effectiveness of our own operations. Using Total Quality
Management techniques, we set out to rethink, redefine, and
                                          Foreword

                                 restructure our business processes and to explore ways to serve our
                                 clients better. We are pleased to report that our continued efforts are
                                 now showing substantial results.

                                 Our accomplishments this period were impressive. We achieved almost
                                 $147 million in cost avoidances, recoveries, and fines. We issued
                                 280 audit reports, with financial recommendations of nearly
                                 $100 million. We initiated 172 investigations and made 295 referrals
                                 for criminal prosecution, civil litigation, and administrative action.
                                 These numbers represent the tangible results of the continuing efforts
                                 of our staff. Many of the changes we have initiated, however, cannot be
                                 fully captured in a statistical review. In addition, our results, while
                                 consistent with those of previous periods, were achieved by signifi-
                                 cantly fewer staff members. Since the close of Fiscal Year (FY) 1994, we
                                 have lost 10 percent ofour entire staff. Moreover, to achieve these
                                 results required our staff to overcome many obstacles and delays
                                 caused by the reorganizations, special projects, and other activities
                                 associated with the Agency's efforts to reinvent itself. Clearly, the OIG
                                 staff has found ways to do things better and more efficiently.

                                 The pace of change accelerated rapidly for both GSA and the OIG in
                                 December 1994, when the President announced that GSA and other
                                 agencies would undergo major restructuring to achieve significant
                                 savings. Both organizations responded quickly to the President's call
                                 for long-term savings and reductions in the size of Government.

                                 GSA Responds to President's Call to Restructure Agency
                                 In early January, GSA submitted to the Office of Management and
                                 Budget its "Strategies for Implementation of the President's Initiative
                                 for Long-Term Savings and to Reduce Government." GSA pledged to
                                 accelerate and broaden actions already underway to strengthen the
                                 execution of responsibilities for policy and oversight, to identity the
                                 most cost-effective methods of performing the responsibilities assigned
                                 to GSA, and to obtain the authority to implement the most cost-
                                 effective solutions. Against the President's requested savings of
                                 $1.4 billion, GSA identified a target of estimated savings, through
                                 policy and oversight and in operations, of $4.06 billion for FY 1996 and
                                 $24.378 billion for the five-year period ending in FY 2000.

                                 GSA also initiated a thorough review of its operations to determine how
                                 to restructure the Agency. The Agency grouped its programs into major
                                 business lines and initiated a comprehensive examination to determine
                                 which business lines should be retained, which should be transferred
                                 to other agencies, and which lines or specific activities should be
                                 privatized. To coordinate this review, GSA contracted with a private
                                 management consulting firm to provide advice and established an
                                 Operations Review Group (ORG) with representatives from each of the
                                 services and staff offices and union and regional participants. Teams of
                                 technical and management experts, with OIG staff as observers, were


H Semiannual Report To The Congress
               rewa

established to examine and make recommendations concerning each
major business line. With the assistance of the management
consultants, the ORG will review these recommendations to ensure
that the process is rational and logical and provides verifiable results.
Two teams completed substantive work during this reporting period,
but final reports will not be issued until later this year.

OIG Responds to President's Call to Restructure Agency
We plan to conduct detailed assessments of the results of each
business line study to ensure that the conclusions reached are
appropriately supported, that the recommended course for future
actions is reasonable, and that the proposed actions are in the best
interests of the taxpayers.

Shortly after the President's announcement in December, and to
facilitate the accelerated review of GSA programs and operations, the
OIG formed nationwide audit teams to perform on a "fast track" basis a
broad appraisal of GSA's major programs and activities. In late
January, we presented an opinion paper to the Administrator and
Members of Congress which provided an independent and objective
assessment of reinvention options in light of Governmentwide
restructuring initiatives. The analysis covered 14 major areas of GSA
activities which employ nearly three-fourths of the Agency's workforce.
We drew upon our knowledge of GSA programs, as well as General
Accounting Office reports, Agency studies, and major Governmentwide
reviews. Our proposed restructuring options and potential savings
estimates were formulated based upon our evaluation of available
information, major program considerations, and our understanding of
reinvention initiatives.

We reported that by boldly restructuring the way in which GSA serves
the Federal community, opportunities are available for GSA to achieve
annual Govemmentwide savings of $1.6 billion and reduce GSA's
staffing level by 6,682. The restructuring options available include
centraliZing inherently Governmental activities within GSA, transferring
or delegating programs to other Federal entities, and privatizing
programs. We have received many favorable comments regarding the
usefulness of our opinion paper. It is being used by officials at the
Office of Management and Budget, Congressional committees, and
managers within the Agency to assist in their own examinations of
GSA's programs and activities.

At the same time as these reinvention activities have been occurring,
we have continued to perform our vital role of providing audit and
investigative coverage of GSA programs and operations. We are very
proud of our accomplishments during the past 6 months, especially in
light of the challenges and difficulties we have faced. We are confident




                                             Office of Inspector General iii
                                               rewa

                                 that our work is having a positive effect, both on ongoing Agency
                                 operations and on GSA's reinvention efforts. We look forward to
                                 continuing to work with Agency management and the Congress in
                                 creating the new GSA.

                                 I want to take this opportunity to thank the GSA Administrator and
                                 Members of Congress for their unwavering support. I also want to
                                 commend OIG employees for their contributions to our achievements
                                 during the past 6 months.



                                 WILLIAM R. BARTON
                                 Inspector General

                                 April 30, 1995




iv Semiannual Report To The Congress
  Tab of Con

                                                                                               Page

Foreword ........................................................................................... .i

Table of Contents ...............................................................................v

Summary of OIG Performance ..........................................................vii

OIG Profile ......................................................................................... 1

Procurement Activities ....................................................................... 2

Reviews of GSA Programs .................................................................. 6

Prevention Activities ......................................................................... 14

Review of Legislation and Regulations .............................................. 18

Statistical Summary of OIG Accomplishments ................................. 21

Appendices

Appendix I - Significant Audits from Prior Reports ........................... 29

Appendix II - Audit Report Register .................................................. 32

Appendix III - Delinquent Debts ....................................................... 56

Appendix N - Reporting Requirements ............................................. 57




                                                                 Office of Inspector General v
               Summary of OIG Performance


DIG Accomplishments   Total financial recommendations                            $ 95,903,045

                      These include:

                        .. Recommendations that funds be put
                           to better use                                         $ 82,678,872

                        .. Questioned costs                                      $ 13,224,173

                      Audit reports issued                                             280

                      Referrals for criminal prosecution, civil
                      litigation, and administrative action                            295

                      Management decisions agreeing with questioned
Results Attained      costs, civil settlements, and court-ordered and
                      investigative recoveries                                  $146,525,575

                      Indictments and informations on criminal
                      referrals and civil complaint referrals                           10

                      Successful criminal prosecutions                                    9

                      Civil settlements                                                 10

                      Contractors suspended/debarred                                    49

                      Employee actions taken on administrative referrals
                      involving GSA employees                                           12




                                                                  Offlce of Inspector General vii
                               OIG Profile

                      The GSA DIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The DIG's six
                      components work together to peiform the missions mandated by the
                      Congress.

                      The DIG provides nationwide coverage of GSA programs and activities.
Organization          It consists of:

                      •    The Office of Audits, an evaluative unit staffed with auditors and
                           analysts who provide comprehensive audit coverage of GSA
                           operations through program performance reviews, internal
                           controls assessments, and financial and mandated compliance
                           audits. It also conducts external reviews to support GSA
                           contracting officials to ensure fair contract prices and adherence to
                           contract terms and conditions.

                      ..   The Office of Investigations, an investigative unit that manages a
                           nationwide program to prevent and detect illegal and/or improper
                           activities involving GSA programs, operations, and personnel.

                      "    The Office of Counsel to the Inspector General, an in-house
                           legal staff that provides legal advice and assistance to all OIG
                           components, represents the OIG in litigation arising out of or
                           affecting OIG operations, and manages the OIG's legislative/
                           regulatory review functions.

                      ..   These functions are supported by the Office of Administration,
                           the Office of Quality Management, and the Internal Evaluation
                           Staff. These components provide in-house information systems,
                           budgetary, administrative, personnel, and communications
                           services; promote and coordinate the total quality process; and
                           plan and direct field office appraisals and internal affairs reviews of
                           OIG operations.

                      The OIG is headquartered in Washington, DC, at GSA's Central Office
Office Locations      building. Field audit and investigations offices are maintained in
                      Boston, New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
                      Worth, San Francisco, and Washington, DC. Sub-offices are also
                      maintained in Auburn, Cleveland, and Los Angeles.

                      The OIG started FY 1995 with a total on-board strength of
Staffing and Budget   387 employees. As of March 31, 1995, our on-board strength was
                      353 employees.

                      The OIG's FY 1995 budget is approximately $33 million.




                                                                     Office of Inspector General   1
                               Procurement Activities

                                   GSA is responsible for providing space for almost 1 million Federal
                                   employees. GSA, therefore, acquires buildings and sites, constructs
                                   facilities, and leases space as well as contracts for repairs, alterations,
                                   maintenance, and protection ofGovemment-controHed space. GSA also
                                   operates a Govemmentwide service and supply system. To meet the
                                    needs of customer agencies, GSA contracts for billions oj dollars worth of
                                   equipment, supplies, materials, and services each year. We review these
                                   procurements on both a preaward and postaward basis to ensure that
                                   the taxpayers' interests are protected. We peiform approximately
                                   400 reviews each year.


Significant DIG                    Over $7 Million in Civil Settlements
                                   This period, the Government entered into ten settlement agreements in
Accomplishments                    which companies agreed to pay over $7 million to resolve their potential
                                   civil liability under the False Claims Act. These agreements, negotiated
                                   by representatives of the Department of Justice and the GSA OIG,
                                   reflect the ongOing efforts of the OIG to pursue cases involving
                                   procurement fraud and practices which threaten the integrity of the
                                   Government's procurement process.

                                   Most of these cases involved procurements under GSA's Multiple
                                   Award Schedule (MAS) program. Under this program, GSA negotiates
                                   contracts with a number of vendors who may then sell covered
                                   products to Federal agenCies at established contract prices. Consistent
                                   with the provisions of the Truth in Negotiations Act and the Competi-
                                   tion in Contracting Act, the process is based on the principles of full
                                   and open disclosure and fair negotiations. Vendors must provide
                                   current, accurate, and complete pricing information-including
                                   information about discounts granted to commercial customers-during
                                   contract negotiations. Relying on this information, GSA contracting
                                   personnel may then seek to obtain the best possible prices for the
                                   Government. In cases where vendors fail to provide current, accurate,
                                   and complete information, the Government may pay artifiCially inflated
                                   prices for the products and services it purchases. Highlights of selected
                                   cases follow.

                                   "    A computer manufacturer agreed to pay $1.9 million to settle its
                                        potential civil liability. An investigation was initiated after an OIG
                                        audit revealed that the supplier sold items to its commercial
                                        customers at discounts greater than those disclosed or offered to
                                        GSA during contract negotiations.

                                   "    A manufacturer of scientific testing eqUipment paid the
                                        Government $1.35 million to settle its potential civil liability. The
                                        settlement agreement resulted from an audit and investigation
                                        which showed the company had failed to accurately proVide
                                        pricing and discount information to GSA contract negotiators as
                                        required.



2   Semiannual Report To The Congress
Procurement Activities

 •    A company that provides automated data processing supplies
      agreed to pay the Government $1.2 million to settle the
      Government's claim that the company had submitted a false
      certification and had overcharged Federal customers. An OIG audit
      and investigation revealed that the firm had falsely represented its
      commercial sales to GSA contract negotiators.

 •    A major manufacturer of household and industrial plastic supplies
      and its Government contracts' representative agreed to pay
      $1 million to settle a qui tam action under the False Claims Act. The
      qui tam proviSion in the False Claims Act allows individuals to bring
      suit, on behalf of themselves and the Federal Government, against
      contractors who submit false claims or false statements to the
      Government. The OIG confirmed the relator's allegation that the two
      companies failed to fully disclose their discount and pricing poliCies
      to GSA negotiators, and failed to pass along price reductions to
      their Government customers, as required by their contracts.

 •    A company that manufactures highway markers, display systems,
      and traffic signs agreed to pay $550,212 to settle the Government's
      claims that it failed to provide current, accurate, and complete
      information to GSA in the course of contract negotiations. The
      settlement also resolved the Government's claims that, in the
      course of its contract performance, the company failed to give its
      Government customers the price reductions to which they were
      entitled.

 ..   A company that sells home medical care and patient room
      furniture paid the Government $350,000. The settlement
      agreement resolved the Government's claims that the company
      had failed to give its Federal customers the price reductions to
      which they were entitled by the terms of its MAS contract.

 Conspiracy Conviction
 On December 15, 1994, a food service equipment distributor pled guilty
 in U.S. District Court to conspiracy to defraud the Government.
 SentenCing is scheduled for April 1995.

 A joint Federal Bureau ofInvestigation, Department of Defense OIG,
 and GSA OIG investigation was initiated in response to confidential
 information received by the U.S. Attorney's Office alleging that the
 distributor was systematically overcharging for purchases made under
 a GSA Multiple Award Schedule contract. Investigators found that
 during the period 1987 to 1990, the distributor conspired to defraud
 Federal agencies by quoting inflated list prices and applying discounts
 smaller than required by the contract. To date, the investigation has
 identified approximately $750,000 in fraudulent overcharges which
 stemmed from over $6 million in Government sales.



                                                Office of Inspector General 3
                                    ocurement Activities

                                   The distributor's commission system encouraged salespersons to
                                   overcharge by allowing them to share in any extra profit that resulted
                                   from their fraudulent activity, while at the same time offering them
                                   little, if any, compensation for sales made at GSA prices.

                                   Previously, in September 1994, three former salespersons of the
                                   distributor were sentenced in U.S. District Court after pleading guilty
                                   to conspiracy to defraud the Government.

                                   GSA Employees Accepted Gratuities
                                   On January 20, 1995, a former GSA automotive equipment repair
                                   inspector and a former GSA motor transportation officer pled guilty in
                                   U.S. District Court to charges of conspiracy and acceptance of illegal
                                   gratuities. In addition, the motor transportation officer pled guilty to
                                   falsification of a sworn affidavit. Sentencing is scheduled for April 11
                                   and 13, 1995, respectively.

                                   A joint Federal Bureau of Investigation and GSA OIG investigation was
                                   initiated when an auto painting and body repair vendor alleged possible
                                   corruption involving GSA employees. The investigation disclosed that
                                   the motor transportation officer and automotive equipment repair
                                   inspector solicited and received illegal gratuities in exchange for GSA-
                                   related fleet business. Investigators found that the motor
                                   transportation officer, who supervised operations at a regional fleet
                                   management center, accepted cash gratuities via three schemes: 1) the
                                   vendor submitted to GSA fraudulently inflated repair orders which he
                                   approved and, in exchange, the vendor paid him in cash the amount by
                                   which the estimate was inflated; 2) solicitations of cash ostensibly for
                                   expenses for two seasonal parties for GSA employees but not used for
                                   that purpose; and 3) a sporadic gratuity scheme wherein he
                                   occasionally requested cash for personal activities or events. Through
                                   these schemes, the motor transportation officer accepted at least
                                   $1,350 and free services on personal vehicles. Investigators also found
                                   that the automotive equipment repair inspector provided confidential
                                   bidding information to vendors in exchange for pre-arranged cash
                                   kickbacks totaling $18,850 and free services on personal vehicles.

                                   The motor transportation officer resigned from his GSA employment
                                   during the course of the investigation. The automotive equipment
                                   repair inspector was terminated from Federal employment as a result
                                   of his misconduct.

                                   Referral to the IRS
                                   During a recent preaward audit, we noted that a firm failed to withhold,
                                   report, or pay all required employment taxes for its employees during
                                   calendar year 1994. The affected items included Federal and State
                                   income taxes, Social Security, and Medicare.




4   Semiannual Report To The Congress
   curement Activities

Officials of the finn infonned the OIG that, due to cash flow problems,
they decided to discontinue all employee tax withholding for several pay
periods. The officials asserted that they did this in order to ensure that
they would have sufficient funds to avoid employee layoffs and still be
able to issue regular pay checks. We estimate the total underpayment
could be as much as $50,000.

We referred the matter to the Director, Office of Employment Taxes,
Internal Revenue Service, on March 22, 1995.




                                             Office of Inspector General 5
                            Reviews of GSA Programs

                                   GSA is a central management agency that sets Federal policy in such
                                   areas as Federal procurement, real property management, and telecom-
                                   munications. GSA also manages diversified Government operations
                                   involving buildings management, supply Jacilities, real and personal
                                   property disposals and sales, data processing, and motor vehicle and
                                   travel management. In addition, GSA manages 131 accountingJunds
                                   and provides cross-servicing supportJor client agencies. Our audits
                                   examine the efficiency, effectiveness, and integrity oJ GSA programs and
                                   operations and result in reports to management. Our internal audits
                                   program is designed to Jacilitate management's evaluation and
                                   improvement oj control systems by identifying areas oj vulnerability and
                                   including recommendations Jor improvement. This period, the OIG
                                   peTjormed 45 internal reviews on Agency program areas.


Significant DIG                    DIG Advisory Opinion on Options to Reinvent GSA
                                   The President, the Congress, and the American public have challenged
Accomplishments                    the Executive Branch to reinvent itself into a leaner, more efficient
                                   Government. In response, GSA has embarked upon a comprehensive
                                   effort to streamline activities and achieve significant savings for the
                                   taxpayers. Consistent with our role under the Inspector General Act,
                                   we completed an analysis of most of GSA's major programs and
                                   activities that will complement the Agency's effort to identify savings
                                   and reengineering opportunities. We believe that our broad knowledge
                                   of the Agency, coupled with the statutory requirement that we be
                                   divorced from program operating responsibilities, places us in an
                                   especially good position to render informed, impartial, and objective
                                   insights on restructuring options.

                                   We brought our most experienced and knowledgeable audit managers
                                   together to work in teams in preparing the report on a special "fast
                                   track" basis. We drew upon the OIG's knowledge of GSA programs as
                                   well as information available in General Accounting Office reports, GSA
                                   studies, and major Governmentwide reviews such as the National
                                   Performance Review and the Grace and Hoover Commissions. The
                                   report was presented to GSA management on January 23, 1995 and
                                   was provided to cognizant CongreSSional committees and Members. We
                                   recognize that a number of promising possibilities exist for restructur-
                                   ing GSA's programs, and we are continuing to work with GSA manage-
                                   ment to independently and objectively review these alternatives.

                                   We believe that GSA could realize annual Governmentwide savings of
                                   $1.6 billion by boldly restructuring the way it serves the Federal
                                   community and by increasing its centralized policy and oversight role.
                                   Our report focused on three restructuring concepts similar to many of
                                   those being considered by GSA. First, we believe that GSA should
                                   streamline, as necessary, and keep offices, programs, or services that
                                   1) effectively provide policy and oversight, 2) leverage Govemmentwide
                                   savings because of centralized program control, or 3) are the providers
                                   of choice for GSA's customers. Second, GSA should consider


6   Semiannual Report To The Congress
Reviews of GSA Pfi                     rams

   transferring or delegating programs unrelated to its central mission.
   While some programs should remain within the Government, there may
   not be overriding reasons for GSA to provide such services. In such
   cases, GSA should consider identitying other agencies that could
   appropriately assume program responsibility or be delegated
   operational responsibility when it is cost effective. Third, GSA should
   examine privatization of programs under several broadly-based options
   when it is clear that the commercial sector is a more efficient and
   effective provider of the service. Possible methods of privatizing include
   various forms of contracting with the private sector.

   State and Local Taxes on FTS2000
   FfS2000 provides Federal agencies with long-distance telecommuni-
   cations services through two vendors. It has been characterized as the
   largest private telecommunications system in the world, as well as the
   largest non-aerospace civilian agency procurement.

   The OIG continued to review important aspects of FTS2000. Previous
   Semiannual Reports to the Congress have reported concerns of the OIG
   with contract changes and overall administrative practices. One of the
   audits we conducted this period focused on the validity of State and
   local taxes imposed on FTS2000 services.

   Prior to award of the initial FTS2000 contract in 1988, and again in
   1990, GSA officials expressed concern over the State/local taxation of
   FfS2000 services. The Office of General Counsel (OGC) was asked to
   provide legal advice on the taxation issue. There is no indication in the
   Agency's files that OGC provided any formal written response. During
   1992 and 1993, OGe received additional requests for advice; however,
   the OGC concluded that it did not have the resources to pursue this
   complex review because of other higher priority FTS2000 related
   matters.

   In February 1994, we asked OGe to reassess the tax issue, and it
   agreed that legal review was warranted and subsequently committed
   staff to the project. Legal opinions that have now been issued could
   result in recovery of $2.5 million from several states and the avoidance
   of future payment of an equal amount.

   In the December 8, 1994 report, we recommended that as the Office of
   FTS2000 and the Information Technology Service formulate the priority
   requirements for legal support, the OGC should establish with these
   clients procedures for submission and handling of requests for legal
   assistance and timely responses, primarily as they relate to issues
   involving contract award administration.

   The OGC has responded favorably by providing its FY 1995 strategic
   plan which calls for the staff attorneys to work more closely with its
   clients in setting legal work priorities and requirements.


                                                 Office of Inspector General 7
                            Reviews of GSA Programs

                                   GSA's Travel Services Program
                                   Over the past 15 years, GSA's Federal Supply Service (FSS) has
                                   implemented several travel services programs which have greatly
                                   improved the convenience and efficiency of temporary duty travel for
                                   Government employees. First, these programs have easily saved the
                                   Government billions of dollars through fare/rate discount agreements
                                   with airlines, rail and bus companies, and hotels/motels. Second,
                                   Travel Management Center contractors (commercial travel agents)
                                   assist travelers in making reservations and obtaining tickets, thus
                                   easing the administrative burden on both the traveler and the agencies.
                                   Finally, Government employees use individual travel cards to charge
                                   expenses while on official travel, resulting in reduced travel advances
                                   for the agencies and increased convenience for the employees and
                                   generating rebate revenues for the Government from the card issuers.

                                   While these programs have been highly successful, we believe that if
                                   GSA is more assertive in pursuing additional travel management
                                   initiatives, there is a potential for agencies to save approximately
                                   $400 million annually, while maintaining their current level of
                                   temporary duty travel.

                                   The orG reviewed the travel services programs to see if customers were
                                   receiving the services they want, and if additional improvements could
                                   be made to make the programs more convenient and economical. To
                                   accomplish this objective, OrG auditors employed "benchmarking"
                                   techniques, by comparing the travel industry's best practices with
                                   FSS's, and looking for the best ways to enhance programs, improve
                                   customer service, and reduce costs. The benchmarking involved
                                   meeting with officials responsible for travel at civilian and military
                                   agencies and with individuals in travel and related service businesses
                                   throughout the private sector. Based on these discussions, the auditors
                                   concluded that FSS can further improve the travel services programs
                                   and potentially save agencies several hundred million dollars annually.

                                   As of February 1994, FSS had 125 commercial travel agency contracts
                                   in effect. Each contract covers a designated geographical area.
                                   Government agencies with dispersed offices must therefore use more
                                   than one travel agent (GSA uses 65, some agencies use nearly all).
                                   Government travel managers are unable to accumulate and analyze
                                   data from multiple travel agents, and as a result, cannot effectively
                                   monitor travel or ensure employee compliance with travel poliCies.
                                   Many of the corporate and military travel managers we spoke with
                                   advised us that limiting the number of travel agencies would result in
                                   increased services and efilciencies, i.e., additional discounts and
                                   amenities from frequently used vendors, as well as special reports to
                                   assist managers. We believe that GSA should restructure travel agency
                                   contracts to enable each Government agency travel manager to work
                                   with a single point of contact. The restructured contracts should allow
                                   travel agents to provide a wider range of services, and do the bulk of



8   Semiannual Report To The Congress
Reviews of GSA Programs

   the day-to-day work of arranging employee travel. This could save
   Federal agencies millions of dollars each year.

   The Travel Card program was designed to reduce the need for travel
   advances and the use of Government Transportation Requests (GTRs)
   and to obtain management information and improve services for
   travelers. Travel officials believe that card usage could be significantly
   increased. Our report stated that travel card usage is lower than it
   could be because the Federal Travel Regulation does not require card
   holders to use the card wherever it is accepted; other charge cards offer
   users personal rebates and other incentives; and some agencies still
   use GTRs because regulations do not discourage their use. Both
   Government and corporate travel managers told us full use of the travel
   card would increase the value of reports provided by the card
   contractor, assist travel managers in negotiating preferred vendor
   agreements, and generate significant dollar savings. By amending
   regulations to require card usage wherever possible, travel costs will be
   lower and management data will improve.

   We also believe that GSA should promote the idea of centralized
   payment of employee charge card travel. By so doing, the Government
   could eliminate the annual payment of over $36 million for State and
   local taxes assessed on travelers' lodging and car rental expenses;
   reduce or eliminate travel advance fees, saving between $1.5 to
   $3.7 million per year; optimize sponsor and productivity refunds,
   potentially eliminating almost $15 million in annual service fees; and
   simplify travel for the employee. Although centralized payment would
   increase the Government's risk of loss due to fraudulent charges or
   costs in excess of per diem, we believe the benefits would far outweigh
   any loss. Automated travel voucher systems (which many agencies are
   or soon will be implementing) would minimize the risk and expedite
   recovery from employees. While some legislative action might be
   necessary to expedite centralized payments, the potential for savings is
   Significant, and FSS should pursue any required amendments.

   In our report, we advised management that GSA should take a more
   active role in encouraging better travel management in civilian
   Government agencies. By doing so, agencies, the Office of Management
   and Budget, and Congress would have more accurate travel data upon
   which to base decisions, and Government travelers would enjoy the
   same or better services and amenities.

   The Commissioner, Federal Supply Service, generally agreed with the
   suggestions in the November 21, 1994 report. The OIG plans, in about
   1 year, to review FSS's progress in expanding the level of travel services
   available to agencies.




                                                 Office of Inspector General 9
                               views ofG                               rams

                                 GSA's Fine Arts Program
                                 GSA, under its Fine Arts program, controls approximately 2,500 works
                                 of art located in Federal space, as well as thousands of works housed
                                 in non-federal institutions. Most of the art in non-federal institutions
                                 was commissioned by the Roosevelt Administration during the 1930's
                                 and 1940's to employ out-of-work artists under Works Progress
                                 Administration (WPA) programs. The assets of the WPA programs were
                                 transferred to GSA in 1949, when GSA was created.

                                 An audit of the Fine Arts program found that GSA has been making
                                 efforts to gain better management control over WPA art in non-federal
                                 institutions. Identifying the art and renewing loan agreements may,
                                 however, increase GSA's costs and be causing some institutions to
                                 reassess how they participate in the program. Since many institutions
                                 have had the art for 50 to 60 years, they simply continued caring for it.
                                 Some assumed the Government had abandoned the works since there
                                 had been little or no Government contact or assistance.

                                 GSA has retained ownership of many WPA works believing that Federal
                                 ownership would best assure the art's availability to the public and its
                                 preservation for the future. Some institutions, however, have stated
                                 that they do not give loaned art the same public display and care that
                                 owned works receive.

                                 GSA had acquired other art works froni a variety of sources before
                                 determining where the art would be displayed. As a result, some art
                                 remains in storage unavailable to the public and incurring storage
                                 costs. Also, many GSA facilities do not have proper storage space to
                                 protect the art in their possession.

                                 Finally, the report suggested changes to the fine arts computer system
                                 to improve the accuracy of exchanged information between Central
                                 Office and the regional offices.

                                 Our December 22, 1994 report recommended that the Commissioner,
                                 Public Buildings Service:

                                 •     Reassess poliCies and practices for owning and managing fine art
                                       in non-federal institutions.

                                 II    Research records related to works GSA has retrieved from
                                       museums, and return any art that records show was previously
                                       allocated to the museums.

                                 •     Define how fine art in Federally controlled space is to be utilized
                                       and provide gUidance for the acceptance and disposition of fine art.

                                 "     Give the regional Fine Arts Officers direct access to the fine arts
                                       computer data base.



10 Semiannual Report To The Congress
views of GSA               p~        rams

..   Provide secure, climate controlled storage for art that will be stored
     for long periods.

The Commissioner generally agreed with the recommendations in the
report. The audit is still in the resolution process.

Processing of Thrift Savings Plan Transactions
The Thrift Savings Plan (TSP) is a tax-deferred retirement savings and
investment plan for Federal employees covered by the Federal
Employees' Retirement System (FERS) and the Civil Service Retirement
System (CSRS). Employees may contribute a portion of their basic pay
to the TSP and allocate their contributions among three investment
funds. The Government partially matches contributions made by FERS
employees, but not CSRS employees. In addition, the Government
contributes one percent of FERS employees' basic pay to the TSP even if
the employees do not make their own contributions. During TSP open
seasons, employees may elect to initiate, terminate, or change the
amount of their contributions or how they are invested. As of
August 31, 1994, the year-to-date TSP contributions for GSA
employees totaled over $29 million.

An OIG review at three regional personnel offices and the National
Payroll Center (NPC) found that TSP transactions generally are being
processed timely and accurately and in accordance with established
standards. However, our review identified several instances of incorrect
TSP data in the personnel and payroll systems relating to TSP service
computation dates, TSP eligibility dates, and TSP fund investment
allocation percentages. Neither the employees nor the Government were
harmed by the erroneous dates (all have been corrected and all but one
error occurred prior to a Central Office Personnel instruction
emphasizing accuracy ofTSP dates). However, errors in the investment
allocations could affect employees' investment accounts and result in
GSA being liable for monetary loss of earnings by employees. Manage-
ment has taken action to correct the affected employees' accounts, and
to remind payroll technicians and personnel officers of the need for
accuracy and completeness in processing TSP actions.

We believe that FERS employees may not be fully aware that they can
allot the one percent Government contribution even if they are not
making their own contributions. During the review, we noted
differences in the extent personnel offices inform FERS employees of
their right to allocate the Government one percent contribution among
the three TSP funds.

In the January 3, 1995 report, we recommended that the Regional
Administrator and the Associate Administrator for Management
Services and Human Resources:




                                             Office of Inspector General   11
                               views of GSA Programs

                                 •     Require NPC officials to determine the amount of lost earnings
                                       related to instances of incorrect TSP fund investment allocation
                                       and correct the affected employees' TSP accounts.

                                 G     Direct personnel offices to reject election forms submitted by FERS
                                       employees which stop the employees' contributions but do not
                                       designate how the one percent TSP contributions are to be
                                       allocated.

                                 •     Require personnel offices to provide information to eligible
                                       noncontributing FERS employees that explicitly states the
                                       employees' right to allocate the Government one percent TSP
                                       contribution among the three investment funds.

                                 Management agreed with the recommendations in the report. The
                                 audit is still in the resolution process.

                                 Reimbursable Work Authorizations
                                 GSA's responsibility to manage the Federal Government's real property
                                 is established by the Federal Property and Administrative Services Act
                                 of 1949, as amended (FPASA). The FPASA authorizes GSA's Reimburs-
                                 able Work Authorization (RWA) program wherein GSA provides special
                                 services, repairs, and alterations of Government owned or leased space
                                 that exceed the standard level of services allowed tenant agencies as
                                 part of their rental charge. In FY 1993, almost $332 million in revenue
                                 was generated from the RWA program.

                                 The OIG has been conducting an ongoing review of GSA's accounting
                                 and billing controls over reimbursable work. As part of the review, we
                                 completed an audit to determine if GSA is accurately identifYing and
                                 accounting for the actual costs associated with reimbursable work. We
                                 found that GSA does not recover the indirect costs related to the
                                 performance of RWAs from its customer agencies. Indirect costs
                                 include GSA's overhead charges related to contract award and
                                 administration, data processing, and legal, accounting, and personnel
                                 support services. These costs were estimated to bG as much as
                                 $25 million annually. Due to the materiality of the amounts in
                                 question, we concluded that this condition warrants a material
                                 weakness designation and should be reported under the Federal
                                 Managers' Financial Integrity Act.

                                 We concluded that the failure to recover indirect costs on RWAs is
                                 contrary to provisions of the FPASA and Congressional intent, as
                                 reflected in GSA's previous appropriations acts. By not charging for
                                 these indirect costs, GSA is in effect subsidizing the appropriations of
                                 other agencies at the expense of its own operations. As a result, Federal
                                 Buildings Fund monies intended for other GSA programs and
                                 operations must be used to pay for these costs.



12 Semiannual Report To The Congress
views of GSA Programs

GSA management believes that when the Federal Buildings Fund was
established, a decision was made to include indirect costs in the
commercially equivalent rent charges assessed to customer agencies.
The Public Buildings Service reported that GSA's Office of General
Counsel and Office of Budget concurred with that assessment. We
maintain that the FPASA and GSA's appropriations acts require that
the costs for reimbursable services, including indirect costs, be charged
directly to the customer agency. Furthermore, in situations where GSA
has provided services to customers who have been delegated property
management authority or own their own buildings, GSA cannot recover
its indirect costs on RWA projects because those customers do not pay
rent to the Federal Buildings Fund. Management stated that the
Business Process Reengineering Team has been directed to redesign
the current RWA process.

In the March 31, 1995 report, we recommended that the
Commissioner, Public Buildings Service:

..   Have the Public Buildings Service Controller work with the Chief
     Financial Officer to develop overhead rates to apply to RWA
     projects.

..   Instruct the regional offices to charge customer agencies for
     overhead on RWA projects and provide the necessary gUidance.

Management did not indicate its agreement or disagreement with the
report recommendations. The audit is still in the resolution process.




                                            Office of Inspector General   13
                               Prevention Activities

                                 In addition to detecting problems in GSA operations, the OIG is
                                 responsibleJor initiating actions to preventfraud, waste, and abuse and
                                 to promote economy and efficiency.

                                 The OIG's preaward audit program provides information to contracting
Significant Preaward             officers for use in negotiating contracts. The pre-decisional, advisory
Audits                           nature of preaward audits distinguishes them from other audits. This
                                 program provides vital and current information to contracting officers,
                                 enabling them to significantly improve the Government's negotiating
                                 position and realize millions of dollars in savings on negotiated
                                 contracts. This period, the OIG performed preaward audits of
                                 193 contracts with an estimated value of over $900 million. The audit
                                 reports contained over $80 million in financial recommendations.

                                 Multiple Award Schedule Contracts
                                 This period, four of the more significant Multiple Award Schedule
                                 contracts we audited had estimated Governmentwide sales totaling
                                 over $47 million. We found that Government agencies could save over
                                 $10 million if improved discounts can be negotiated based on the
                                 information we developed.

                                 The OIG evaluated discount schedule and marketing data submitted in
                                 response to GSA's solicitations for the purchase of training aids and
                                 devices; laboratory equipment; and draperies, blinds, and bedspreads.

                                 The audits disclosed common problems in the proposals. Companies
                                 were offering commercial customers and individual Federal agencies
                                 better pricing than offered to GSA. Also, the companies either did not
                                 disclose the full extent of higher discounts granted to other customers
                                 or did not provide adequate justification for not offering the higher
                                 discounts to GSA.

                                 Other Contracts
                                 The orG performed two significant audits of claims for increased costs.
                                 These audits reviewed amounts of over $4 million and recommended
                                 adjustments of more than $2 million.

                                 '"    The OIG audited a claim for increased costs related to the
                                       renovation and conversion of two Federal buildings. The contractor
                                       alleged that a Government directive to suspend on -site work
                                       resulted in increased costs. We advised the contracting officer that
                                       most of the claimed costs were not allowable, reasonable,
                                       supported by appropriate cost accounting records, or allocable to
                                       the Government contract.

                                 e     The OIG reviewed a claim for increased costs related to the
                                       construction of a Federal courthouse. The contractor alleged that
                                       Government-caused delays due to defective documents, lack of


14 Semiannual Report To The Congress
                          Prevention Activities

                             direction, lack of permanent utilities, and excessive change orders
                             during construction resulted in increased costs. We advised the
                             contracting officer that the contractor overstated the costs for
                             general conditions, home office overhead, and overtime. In
                             addition, the contractor did not adequately support charges related
                             to lost productivity, additional heating, materials handling, and
                             testing costs.

                          The Federal Managers' Financial Integrity Act requires GSA manage-
Federal Managers'         ment to provide assurance to the President and the Congress that
Financial Integrity Act   Agency resources are protected from fraud, waste, mismanagement,
                          and misappropriation.
Reviews
                          We advised management that a material control weakness concerning
                          GSA's control over its automated personal property disposal system
                          should have been reported to the Administrator. In addition, we believe
                          that the high risk rating for this program component should be
                          retained, not reduced as management recommended. Nothing else
                          came to our attention during the review that would lead the OIG to
                          conclude that reporting officials had other than reasonable and reliable
                          bases for their assurance statements.

                          Our findings were presented to the Agency's Management Control
                          Oversight Council. The Council concurred with our recommendation to
                          retain the high risk rating for the property utilization/ disposal
                          component but, after studying the issue, decided that the Adminis-
                          trator's 1994 Assurance Letter to the President would not include
                          controls over the automated personal property disposal system as a
                          material weakness. The Administrator's Assurance Letter instead
                          highlighted personal property disposal as an area of substantial
                          concern.

                          The OIG presents Integrity Awareness Briefings nationwide to educate
Integrity Awareness       GSA employees on their responsibilities for the prevention of fraud and
                          abuse, and to reinforce employees' roles in helping to ensure the
                          integrity of Agency operations.

                          These briefings explain the statutory mission of the OIG and the
                          methods available for reporting suspected instances of wrongdoing. In
                          addition, through case studies and slides, the briefings expose GSA
                          employees to actual instances of fraud in GSA and other Federal
                          agencies.

                          The OIG Hotline provides an avenue for concerned employees to report
Hotline                   suspected wrongdoing. Hotline posters located in GSA-controlled
                          buildings, as well as Hotline brochures, encourage employees to use
                          the Hotline.




                                                                      Office of Inspector General   15
                                 Prevention Activities

                                   During this reporting period, we received 89 Hotline calls and letters. Of
                                   these, 84 complaints warranted further action. We also received
                                   28 referrals from General Accounting Office and other agencies; 13 of
                                   these referrals required further action.

                                   The OIG's program for reviewing leases prior to award provides
Advisory Lease                     front -end assurance that GSA is adhering to regulations and
Reviews                            procedures before awarding selected leases exceeding established
                                   thresholds. These reviews, although advisory in nature, promote
                                   opportunities for economy and efficiency in the leasing area, and the
                                   avoidance of problems before they occur.

                                   This period we received 20 lease proposals for review and completed
                                   5 audits. One of the proposals reviewed had minor deficiencies which
                                   were brought to management's attention. The Agency has identified the
                                   leasing program for evaluation as a nationwide reinvention project. The
                                   OIG will provide an independent verification of the evaluation process.

                                   The OIG performs independent reviews of implementation actions, on a
Implementation                     selected basis, to ensure that management's corrective actions in
Reviews                            response to OIG recommendations are being accomplished according to
                                   established milestones. This period, the OIG performed 8 implementa-
                                   tion reviews. In 7 of the reviews, the recommendations were fully
                                   implemented. In the eighth review, 1 recommendation has been
                                   partially implemented.

                                   The Chief Financial Officers Act of 1990 requires the OI G to conduct or
Financial Statements               arrange for an annual audit of GSA's consolidated financial statements.
Audit                              The Act also requires a report on GSA's system of internal accounting
                                   controls and on GSA's compliance with laws and regulations. With
                                   oversight and gUidance from the OIG, an independent public
                                   accounting firm performed this audit for FY 1994. In the audit report
                                   dated February 1, 1995, GSA received unqualified opinions on its
                                   financial statements as well as on its system of internal accounting
                                   controls. Several conditions were identified where steps should be
                                   taken to strengthen internal controls. None were considered material.
                                   The report on GSA's compliance with laws and regulations indicated
                                   that GSA complied in all material respects. In addition, the OIG
                                   completed limited reviews of the internal controls for two program
                                   performance measures, assessing reasonableness of the control
                                   structure to generate reliable performance information as required by
                                   Office of Management and Budget Bulletin 93-06. The preliminary
                                   assessment showed that the design and implementation of the existing
                                   control structure could be improved.

                                   This period, the OIG conducted an evaluation to satisfY legislative
Legislative                        requirements for FY 1994 activities. In the review, the OIG evaluated
Requirements                       GSA's compliance with Public Law 101-121, also known as the Byrd
                                   Amendment Restrictions on Lobbying Activities. The Amendment
                                   requires that recipients of contracts, loans, or cooperative agreements


16   Semiannual Report To The Congress
Prevention Activities

over certain dollar thresholds certifY that no Federal funds were used
for lobbying activities. Disclosure of lobbying activity costs paid from
non-federal funds is also required. Our review indicated that GSA was
in compliance with the Amendment's requirements.




                                            Office of Inspector General   17
               Review of Legislation and Regulations

                                 The Inspector General Act oj 1978 requires the OIG to review existing
                                 and proposed legislation and regulations to detennine their effect on the
                                 economy and efficiency oj the Agency's programs and operations and on
                                 the prevention and detection ojJraud and abuse.

                                 During this period, the OIG reviewed 252 legislative matters and
                                 31 proposed regulations and directives. The OIG prOvided significant
                                 comments on the following legislative items:

                                 ..    Federal Property and Administrative Services Reinvention Act
                                       of 1995. We endorsed GSA's efforts to determine how it can more
                                       economically and efficiently perform its functions. We also
                                       registered concerns relating to the test programs the legislation
                                       would authorize. Specifically, we recommended that the legislation
                                       establish parameters such as dollar and time period maximums
                                       for such programs. Also, we recommended deletion of the
                                       provision for a blanket waiver of all procurement laws and
                                       regulations in conducting such programs.

                                 ..    Office of Management and Budget Procurement Bill No. 11. We
                                       endorsed the implementation of two-phase selection procedures
                                       for design and construction acquisition. However, we opposed
                                       several provisions of the bill which would expand the definition of
                                       simplified acquisition threshold contracts. First, we opposed the
                                       provision allowing the inclusion of service contracts of up to
                                       $1 million in certain circumstances. Second, we objected to
                                       revising the definition of commercial services to eliminate the
                                       requirement that an established price be reflected in a catalog.
                                       Third, we opposed repealing a statutory provision requiring the
                                       prompt resolution of audit findings. Fourth, we objected to
                                       increasing substantially the justification approval thresholds for
                                       procurements conducted without full and open competition.

                                 ..    H.R. 9, Job Creation and Wage Enhancement Act of 1995. We
                                       objected to the so-called "citizens' rights" provisions on the
                                       grounds that they were impracticable and would cripple the
                                       conduct of Federal investigations. We generally agreed that
                                       whistleblowers should be free from reprisals; however, we objected
                                       to the private whistleblower provisions because their scope was too
                                       broad. Finally, we objected to a provision which would create a
                                       new cause of action that would expose Government employees to
                                       personal liability for engaging in prohibited regulatory practices.
                                       We noted that this cause of action could affect and potentially be
                                       inconsistent with the protections afforded Federal employees
                                       pursuant to the Federal Tort Claims Act.




18 Semiannual Report To The Congress
Review of Legislation and Regulations

         it   H.R. 85, Federal Travel Disclosure Act of 1995. We generally
              opposed this bill because the existing system of travel regulations,
              when properly applied, appears to provide adequate controls. We
              also noted that two aspects of the legislation, the provision
              prohibiting agencies from expending funds on travel by other
              agencies' employees, and the provision requiring public access to
              quarterly travel reports, would hamper the ~IG's ability to pursue
              interagency criminal and civil cases and ongoing investigations
              and audits.

         it   H.R. 28. Freedom from Government Competition Act of 1995.
              While we agreed with the concept of transferring functions
              currently performed by the Government to the private sector, we
              noted that this was only appropriate when cost-effective and
              feasible from a policy standpoint. We questioned the broad and
              sweeping language of the proposed legislation, and we noted that
              careful study was required before any such transfer occurs.

         In addition, the OIG provided comments on the following regulatory
         items:

         it   Federal Acquisition Streamlining Act of 1994, P.L. 103-355,
              Implementing Regulations.

              it   Contractor Whistleblower Provisions. We generally opposed
                   the regulation's notification provision requiring OIGs to notity
                   contractors of their preliminary determination to investigate a
                   particular whistleblower complaint. We believed that this
                   notification provision might compromise the effectiveness of
                   such OIG investigations. Instead, we recommended that such
                   notification occur sometime later in the course of the
                   investigation, perhaps before the written report of findings is
                   prepared by the OIG.

              ..   Truth in Negotiations Act. We cited the need for clarification
                   of the circumstances under which contractors may claim the
                   new commercial item exemption and of the audit provisions
                   that accompany the new exemption. In addition, we objected to
                   the regulation's definition of adequate price competition as
                   including instances where only one responsive offer is received.
                   Also, we suggested that, when appropriate, sample defective
                   pricing and price reduction clauses be contained within the
                   Federal Acquisition Regulation (FAR) for easy use by
                   contracting officers.

              ..   Acquisition of Commercial Items. We advised against the
                   loosening of the definition of "commercial items" to include
                   commercial items with "minor modifications." We noted that
                   such items may have undergone Government specialized
                   modifications and may be Significantly more expensive as a


                                                       Office of Inspector General   19
               Review of Legislation and R ulations

                                           result. In such instances, contracting officers should be given
                                           the discretion to determine on a case-by-case basis whether a
                                           modification is minor. In addition, we noted that the
                                           regulation's policy should be revised to allow procuring
                                           agencies to include additional clauses to protect the
                                           Government's interests. Finally, we suggested that the listing of
                                           laws in the FAR from which commercial item procurements
                                           would be exempt should be clarified.

                                       e   Law Enforcement Availability Pay Act of 1994. P.L. 103-
                                           329. Draft and Final Interim Implementing Rules. We
                                           advocated allowing individual agencies or offices more flexibility
                                           in defining the scope of the voluntary opt-out provision. Also, we
                                           proposed the term "agency head" should be defined to explicitly
                                           include the Inspector General in agencies where eligible
                                           investigators are employed within Offices of Inspectors General.
                                           We also pOinted out a change which needed to be made in the
                                           manner of accounting for training and travel hours in meeting
                                           the substantial hours requirement so as to avoid both inequity
                                           to the agent and unfairness to the Government by an undue
                                           "loading" of hours to meet the requirement. In addition, we
                                           believed that there needed to be an allowance for agencies'
                                           discretion to suspend availability pay for employees on excused
                                           absence status pending disciplinary or other proceedings.




20 Semiannual Report To The Congress
      S tis tical Summa of OIG Accomplishments

                              Audit Reports Issued
                             The OIG issued 280 audit reports, including 5 audits performed for the
                             OIG by another agency. The 280 reports contained financial
                             recommendations totaling $95,903,045, including $82,678,872 in
                             recommendations that funds be put to better use and $13,224,173 in
                             questioned costs. Due to GSA's mission of negotiating contracts for
                             Governmentwide supplies and services, most of the recommended
                             savings that funds be put to better use would be applicable to other
                             Federal agencies.

                              Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of those
                             audits as of March 31, 1995. Thirteen reports more than 6 months old
                             were awaiting management decisions as of March 31, 1995; all of them
                             were pre award audits which are not subject to the 6 month manage-
                             ment decision requirement. Table 1 does not include 2 reports issued to
                             other agencies this period and 19 reports excluded from the
                             management decision process because they pertain to ongoing
                             investigations.



               Table 1. Management Decisions on                        Audits
                                                           Reports with              Total
                                               No. of        Financial             Financial
                                              Reports    Recommendations       Recommendations

For which no management decision
had been made as of 10/1/94
   Less than 6 months old                      104              87                $106,537,482
   More than 6 months old                        8               6                   3,280,308
Reports issued this period                     275             178                  94,641,71Q
TOTAL                                          387             271                $204,459,509
For which a management decision
was made during the reporting
period
   Issued prior periods                         99               81               $107,679,521
   Issued current period                       183             .108                 51,011,758
TOTAL                                          282             189                $158,691,279
For which no management decision
had been made as of 3/31/95
   Less than 6 months old                        92             70                $ 43,629,961
   More than 6 months old                       ~              ~                     2,138,269
TOTAL                                           105             82                $          ?~n




                                                                        Office of Inspector General   21
         S tistical Summa of DIG Accomplishmen

                                 Management Decisions on Audit Reports With Financial
                                 Recommendations
                                 Tables 2 and 3 present the audits identified in Table 1 as containing
                                 financial recommendations by category (funds to be put to better use or
                                 questioned costs). Some of the reports contained recommendations
                                 that funds be put to better use as well as questioned costs, and these
                                 reports are therefore included in both Tables 2 and 3.




              Table 2. Management Decisions on OIG Audits with
              Recommendations that Funds be Put to Better Use
                                                           No. of          Financial
                                                          Reports      Recommendations
                                                          --------------------------

 For which no management decision had
 been made as of 10/1/94
    Less than 6 months old                                     80                 $ 103,381,971
    More than 6 months old                                      6                     3,280,308
 Reports issued this period                                   139                    81,417,546
 TOTAL                                                       225                 $188,079,825
 For which a management decision was
 made during the reporting period
     Recommendations agreed to by
     management based on proposed
     Ell management action                                                        $ 130,202,611
     " legislative action
     Recommendations not agreed to
     by management                                                                   12,459,659
 TOTAL                                                        156                $142,662,270
 For which no management decision had
 been made as of 3/31/95
     Less than 6 months old                                    57                 $ 43,279,286
     More than 6 months old                                   -.n                     2,138,269
 TOTAL                                                         69                 $ 45,417,555




22 Semiannual Report To The Congress
        5 tis tical                mary of OIG Acco                           hmen


                     Table 3. Management Decisions on OIG
                         Audits with Questioned Costs
                                                No. of         Questioned        Unsupported
                                               Reports           Costs              Costs
For which no management decision
had been made as of 10/1/94
    Less than 6 months old                         8       $    3,155,511               $-
    More than 6 months old                         o                    o
Reports issued this period                        42           13,224,173
TOTAL                                             50       $ 16.379,684                 $-
For which a management decision
was made during the reporting
period
    Disallowed costs                                       $ 13,067,650*                $-
    Costs not disallowed                                       3,992,187
TOTAL                                            36        $ 17,059,837**               $-
For which no management decision
had been made as of3/31/95
    Less than 6 months old                        14       $     350,675                $-
    More than 6 months old                        ~                     o
TOTAL                                             14       $     350,675                $-

* $6,076,174 oJthis amount was recovered in civil settlements, as reported in Table 5.
** Includes $1,030,828 that management decided to seek that exceeded recommended amounts.




                                                                        Office of Inspector General   23
        Statistical Summa                       of OIG Accomplishments


                                 Investigative Workload
                                 The OIG opened 172 investigative cases and closed 179 cases during
                                 this period. In addition, the OIG received and evaluated 78 complaints
                                 and allegations from sources other than the Hotline that involved GSA
                                 employees and programs. Based upon our analyses of these complaints
                                 and allegations, OIG investigations were not warranted.

                                 Referrals
                                 The OIG makes criminal referrals to the Department of Justice or other
                                 authorities for prosecutive consideration and civil referrals to the Civil
                                 Division of the Department of Justice or u.S. Attorneys for litigative
                                 consideration. The OIG also makes administrative referrals to GSA
                                 officials on certain cases disclosing wrongdoing on the part of GSA
                                 employees, contractors, or private individuals doing business with the
                                 Government.


                          Table 4. Summary of OIG Referrals
              Type of Referral                           Cases                      Subjects

               Criminal                                    36                            71
               Civil                                        9                            18
               Administrative                              82                           206
               TOTAL                                      127                          295


                                 In addition, the OIG made 29 referrals to other Federal activities for
                                 further investigation or other action and 58 referrals to GSA officials for
                                 informational purposes only.

                                 Actions on DIG Referrals
                                 Based on these and prior referrals, 21 cases (43 subjects) were
                                 accepted for criminal prosecution and 11 cases (18 subjects) were
                                 accepted for civil litigation. Criminal cases originating from OIG
                                 referrals resulted in 10 indictments/informations and 9 successful
                                 prosecutions. OIG civil referrals resulted in 10 case settlements. Based
                                 on OIG administrative referrals, management debarred 31 contractors,
                                 suspended 18 contractors, and took 12 personnel actions against
                                 employees.




24 Semiannual Report To The Congress
       S tistical Summa ofOIG Acco                                             lishmen

                                  Monetary Results
                                  Table 5 presents the amounts of fines, penalties, settlements,
                                  judgments, and restitutions payable to the U.S. Government obtained
                                  as a result of criminal and civil actions arising from OIG referrals.

                                  In addition, the OIG identified for recovery $2,123,137 in money and/or
                                  property during the course of its investigations.



                         Table 5. Criminal and Civil Recoveries
                                                     Criminal                        Civil

          Fines and Penalties                        $ lO,150                   $
         Settlements or Judgments                                                   7,150,212*
          Restitutions                                  47,989
         TOTAL                                       $ 58.139                   $7,150,212
*This amount includes $6,076,174 reportable pursuant to section 5(a)(8) oJ the Inspector General Act as
management decisions to disallow costs. See Table 3.




                                                                              Office of Inspector General 25
APPENDICES
                           /- Significant Audits From Prior                                           arts

Under the Agency's audit management decision process,       Maintenance Control Center Operations
GSA's Office of Management Services and Human
Resources, Office of Management Controls and Evaluation,    Period First Reported: April 1, 1994 to September 30,
is responsible for tracking implementation of audit         1994
recommendations after a management decision has been        The review identified opportunities for improvement in
reached. That office furnished the following status         the processing of invoices and the management of main-
information.                                                tenance and repair data. The report contained five
                                                            recommendations; none have been implemented.
Thirteen audits highlighted in prior Reports to the
Congress have not yet been fully implemented; all are       The recommendations require the establishing of alter-
being implemented in accordance with currently              native payment procedures, recording of necessary repair
established milestones.                                     and maintenance information, transferring service
                                                            information from customer agencies, and streamlining
Real Property Sales                                         operational structure. They are scheduled for completion
                                                            by November 30, 1995.
Period First Reported: April 1, 1994 to September 30,
1994                                                        Federal Computer Acquisition Center
The review found that GSA was not fully recovering costs    Period First Reported: April 1, 1994 to September 30,
and that its accounting system could not adequately track   1994
costs. All of the report's recommendations have been
implemented; however, audit closure awaits a manage-        The review found that the Center lacked adequate
ment follow-up review scheduled for completion by           management and financial control systems and needed to
September 30, 1995.                                         fully implement GSA policies and procedures regarding
                                                            automated information system security. The report
                                                            contained three recommendations; one has been
Real Estate Management                                      implemented.
Period First Reported: April 1, 1994 to September 30,
1994                                                        The remaining two recommendations require the
                                                            development of a system of internal management
The review found that repair and alteration projects in     controls and improvements in automated information
one region could be more comprehensively planned and        system security. They are scheduled for completion by
data bases more accurately maintained. The report           April 30, 1995.
contained ten recommendations; seven have been
implemented.                                                Administrative Support Services
One of the remaining recommendations, involving the         Period First Reported: April 1, 1994 to September 30,
validation of work items listed in the data base, is        1994
scheduled for completion by August 31, 1996. The            The review identified opportunities for improvement in
second recommendation requires the identification of        the administrative support services GSA provides to its
building retention status and is scheduled for comple-      program activities. All of the report's recommendations
tion by June 30, 1996. The third recommendation involves    have been implemented; however, audit closure awaits a
the validation of inspection data which is scheduled for    management follow-up review scheduled for completion
completion by October 31, 1995.                             by June 30, 1995.




                                                                                     Office of Inspector General 29
       Appendix /- Significant Audits                                              m Prior Reports

Federal Protective Service                                      Business Allocation
Period First Reported: October 1, 1993 to March 31,             Period First Reported: October 1, 1993 to March 31,
1994                                                            1994
The review found that GSA needed to strengthen its con-         The review focused on GSA's administration of the
trol over fireanns and improve physical security. The           60 percent and 40 percent antiCipated business alloca-
report contained 14 recommendations; 13 have been               tion between two FTS2000 contractors. The report
implemented.                                                    contained two recommendations; one has been imple-
                                                                mented.
The remaining recommendation involves an operational
review and the development of a plan for the efficient oper-    The remaining recommendation involves GSA's determi-
ation of the control centers. It is scheduled for completion    nation of its future role in contractor revenue allocation
by July 31, 1995. A management follow-up review is              and indicating it in future proposals. It is scheduled for
scheduled for completion by August 31,1995.                     completion by January 31, 1996.

Inventory Management                                            Procurement Personnel Development
                                                                Period First Reported: April 1, 1993 to September 30,
Period First Reported: October 1, 1993 to March 31,
1994                                                            1993
                                                                This review advised management to streamline and update
The review identified opportunities for savings in the inven-
                                                                its development programs for procurement personnel.
tory management of stock in depots. All of the report's
                                                                The report contained one recommendation; it has not yet
recommendations have been implemented; however, audit
                                                                been implemented.
closure awaits a management follow-up review sched-
uled for completion by March 31, 1996.                          This recommendation requires improving the warrant-
                                                                ing, training, and certification programs. These
Distribution Centers                                            improvements are scheduled for completion by May 31,
Period First Reported: October 1, 1993 to March 31,             1995.
1994
                                                                Local Telephone Service Program
The review identified opportunities for improvement in
inventory management at a wholesale distribution cen-           Period First Reported: April 1, 1993 to September 30,
ter. The report contained 16 recommendations; 14 have           1993
been implemented.                                               The review disclosed the need to provide better service to
                                                                Federal customers of the local telecommunications pro-
One of the remaining recommendations requires the               gram. The report included six recommendations; two have
implementation of stock locator software. It is scheduled       been implemented.
for completion by September 30, 1995. The other rec-
ommendation involves improvements in stock selection            1\vo of the remaining recommendations require compar-
accuracy. All actions related to the implementation have        ing costs with telephone services available from the private
been completed except for a follow-up review. It is sched-      sector and identifYing customers who should be
uled for completion by November 30, 1995.                       provided service from another type of system.




30 Semiannual Report To The Congress
      Appendix /- Significant Audits                                                     ior Repo

The other two recommendations involve rate agreements         all pertinent actions have been taken on this recommen-
and management of toll calls. An action plan outlining        dation, it remains open until all recovery actions are
revised implementation dates for the recommendations          completed.
is scheduled for completion by May 31, 1995.
                                                              Contract Workload Management
Employee Benefit Programs                                     Period First Reported: April 1, 1992 to September 30,
Period First Reported: October 1, 1992 to March 31,           1992
1993
                                                              This review revealed the need to develop a strategy for
This review found that the processing of health benefit       addreSSing procurement workload concerns. The report
insurance transactions needed improvement. 1be report         contained one recommendation; it has not yet been
contained two recommendations; one has been imple-            implemented.
mented.
                                                              This recommendation involves the development of the
The remaining recommendation required a determina-            means to monitor Multiple Award Schedule contracting
tion whether it would be cost beneficial to recover health    workload. This recommendation remains open, and the
benefit insurance contributions for prior years and to take   Office of Acquisition Policy is monitoring the Agency's
appropriate action based on that determination. While         ongoing systems development efforts.




                                                                                       Office ofInspector General   31
                    A endix //- Audit R art Register
                                                                                             Financial
                                                                                   -
                                                                                        Recommendations
                                                                                      ~-------------~




                                                                                     Funds To      Questioned
Date of    Audit                                                                     Be Put To    (Unsupported)
Report     Number                              Title                                Better Use         Costs

            (Note: Due to the pre-decisional nature of some audits, the
           financial recommendations pertaining to these reports are not
            listed in this Appendix.)

PBS         INTERNAL AUDITS
10/13/94   A42161      Preaward Lease Review: Federal Courthouse, Pecos,
                       Texas, Lease Number GS-07B-14146

10/31/94   A43024      Postaward Lease Audit: The Portals Building, Lease
                       Number GS-I1B-20644

11/08/94   A41519      Audit of Negotiation and Award of Supplemental
                       Architect-Engineer Contracts, Region 5

11/15/94   A32461      Review of Pricing and Management of Reimbursable
                       Work Authorizations, Pacific Rim Region

11/22/94   A41249      Audit of GSA Region 4 Energy Conservation Projects

12/07/94   A53007      Preaward Lease Review: 1331 Pennsylvania Avenue, NW;
                       Washington, DC, Lease Number GS-IIB-40134

12/22/94   A41543      Audit of GSA's Fine Arts Program

01/18/95   A42147      Audit of Buildings Management Field Office, El Paso,
                       Texas

01/27/95   A32454      Audit of Repair and Alteration Inventory, Public
                       Buildings Service, Pacific Rim Region

02/03/95   A53012      Preaward Lease Review: 950 L'Enfant Plaza, SW;
                       Washington, DC, Lease Number GS-I1B-50 124

02/06/95   A53016      Preaward Lease Review: 633 Indiana Avenue, NW,
                       Washington, DC, Lease Number GS-IIB-20069

02/14/95   A42419      Audit of the Use of Repair and Alteration Term Contracts,
                       Pacific Rim Region

02/27/95   A42124      Audit of Region 7 IndefInite Quanti1y Term Contracts                           $7,675
                       Used for Repairs and Alterations

03/14/95   A42153      Audit of Computer Aided Design (CAD) Equipment
                       Utilization, Region 7




32 Semiannual Report To The Congress
                                    //- Audit                   ort Register
                                                                                      Financial
                                                                                 Recommendations
                                                                             -~----~.--~-




                                                                              Funds To      Questioned
Date of    Audit                                                              Be Put To    (Unsupported)
Report     Number                          Title                              Better Use        Costs


03/14/95   A42158   Auclit of Energy Conservation Projects, Region 7

03/14/95   A52484   Preaward Lease Audit: 5051 Rodeo Road, Los Angeles,
                    California, Pacific Rim Region, Lease Number GS-09B-
                    93226

03/23/95   A42144   Audit of Negotiation and Award of Supplemental
                    Architect-Engineer Contracts

03/30/95   A42731   Audit Report on Indirect Costs on PBS Reimbursable
                    Work Authorizations

03/30/95   A53030   Auclit of Overtime Practices: Real Property Management
                    Division

PBS        CONTRACT AUDITS
10/04/94   A43492   Preaward Audit of Architect and EngineeIing Services
                    Contract: DMS International, Inc., Solicitation Number
                    GSl1P94EGD0013

10/06/94   A40651   Preaward Audit of Cost or Pricing Data, Relating to a
                    Claim for Extended Field and Home Office Overhead
                    Costs: Volmar Construction, Inc., Contract Number GS-
                    02P-91-CUC-0035

10/11/94   A43493   Preaward Audit of Architect and EngineeIing Services
                    Contract: CRSS Constructors, Inc., Solicitation Number
                    GS-03P-94-DXD-00 10

10/20/94   A41581   Preaward Audit of Architect and EngineeIing Services
                    Contract: Leonard Parker Associates, Architects, Inc.,
                    Solicitation Number GS05P94GBD0020

10/25/94   A42467   Audit of Termination Proposal: Pacific Southwest
                    Roofing, Inc., Contract Number GS-09P-90-NPC-0014

10/25/94   A42505   Preaward Audit of Cost or Pricing Data: O'Connor
                    Construction Management, Inc., Contract Number
                    GS-09P-94-NPC-0031

10/27/94   A42504   Preaward Audit of Cost or Pricing Data: Daniel, Mann,
                    Johnson & Mendenhall, Solicitation Number GS-09P-
                    94-NPC-0031




                                                                                Office of Inspector General 33
                    Appendix //- Audit Report
                                                                                        Financial
                                                                                    Recommendations
                                                                                 ~--"---.-~---~----




                                                                                 Funds To     Questioned
Date of    Audit                                                                 Be Put To   (Unsupported)
Report     Number                             Title                              BeUer Use        Costs

10/31/94   A40666      Preaward Audit of Architect and Engineering Services
                       Contract: Helpern Architects, Solicitation Number
                       GS-02P-94-CUC-0071 (N)

10/31/94   A40670      Preaward Audit of Architect and Engineering Services
                       Contract: Lakhani & Jordan Engineers, P.C.,
                       Solicitation Number GS-02P-94-CUC-0071 (N)

10/31/94   A43501      Preaward Audit of Architect and Engineering Services
                       Contract: CKL Architects, Inc., Solicitation Number
                       GS-IIP-94-EDG-0006

11/04/94   A40947      Audit of a Claim: SAE Americon Mid-Atlantic, Inc.,
                       Contract Number GS-03P-91-CDC-0006

11/08/94   A40658      Preaward Audit of a Claim: Evergreene Painting Studios,
                       Inc., Contract Number GS-02P-91-CfC-0049

11/08/94   A43484      Preaward Audit of Sole Source Contract: Omnisec
                       International, RFP Number GS-IIP-94-MJC-0031

11/08/94   A43502      Pre award Audit of Sole Source Contract: 4-S
                       Construction, Inc., RFP Number GS-IIP-94-MKC-0030

11/10/94   A41582      Preaward Audit of Architect and Engineering Services
                       Contract: Phillips Swager Associates, Solicitation
                       Number GS05P94GBD0020

11/14/94   A41840      Preaward Audit of Small Business Administration 8(A)
                       Pricing Proposal: Williams Electrical Construction &
                       Wholesale, Inc., Solicitation Number GS06P94GYC-
                       0062(N)

11/15/94   A41579      Preaward Audit of Architect and Engineering Services
                       Contract: Cannon Corporation, Solicitation Number
                       GS06P94GYD0033

11/15/94   A52412      Preaward Audit of Cost or Pricing Data: SecureCo,
                       Solicitation Number GS-09P-94-KSC-0171

11/16/94   A50606      Preaward Audit of Cost or Pricing Data: Armrest
                       Security Patrol, Inc., RFP Number GS-02P-94-CID-0099

11/22/94   A52523      Preaward Audit of Architect and Engineering Services
                       Contract: Silverman & Light, Inc., Solicitation Number
                       GS-09P-94-KTC-0027



34 Semiannual Report To The Congress
                    Appendix //- Audit R ort Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                            Title                             Better Use        Costs

11/23/94   A40667     Pre award Audit of a Claim: Kohn, Pedersen, Fox
                      Associates, P.C., First Tier Subcontractor to BPT
                      Properties, L.P., Contract Number GS-02P-91CUCOO57

11/23/94   A52524     Preaward Audit of Architect and Engineering Services
                      Contract: Gayner Engineers, Solicitation Number
                      GS-09P-94-KTC-0027

11/30/94   A40661     Pre award Audit of Change Order Proposal: Leewen
                      Mechanical Corporation, Contract Number GS02P93-
                      CUC0054

11/30/94   A40671     Preaward Audit of Architect and Engineering Services
                      Contract: Mayers & Schiff Associates PC, Solicitation
                      Number GS-02P-94-CUC-0069(N)

11/30/94   A40946     Audit of a Claim: Fluidics, Inc., Subcontractor to
                      SAE/Americon, Inc., Contract Number GS-03P-91-
                      CDC-0006

11/30/94   A40950     Audit of a Claim: Trade Images, Inc., Subcontractor to
                      SAE/Americon, Inc., Contract Number GS-03P-91-
                      CDC-0006

11/30/94   A50607     Pre award Audit of Cost or Pricing Data: Armrest
                      Security Patrol, Inc., RFP Number GS-02P-94-crc-0039

12/02/94   A40349     Audit of Settlement Proposal: Kenneth R. Adams, Inc.,
                      Contract Number GS-O 1P-93-BZC-0054

12/06/94   A52522     Preaward Audit of Architect and Engineering Services
                      Contract: Holben, Martin & White, Subcontractor to Leo
                      A. Daly, Solicitation Number GS-09P-94-KTC-0031

12/06/94   A52531     Preaward Audit of Architect and Engineering Services
                      Contract: Baltes-Valentino Associates, Solicitation
                      Number GS-09P-94-KTC-0030

12/06/94   A52535     Preaward Audit of Cost or Pricing Data: Leo A. Daly
                      Company, Solicitation Number GS-09P-KTC-0031

12/08/94   A51511     Preaward Audit of Architect and Engineering Services
                      Contract: Environ, Inc., Solicitation Number GS05P94-
                      GBD0021




                                                                                Office of Inspector General 35
                    Appendix 11- Au                               ort Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

12/08/94   A51514      Preaward Audit of Architect and Engineering Services
                       Contract: Pierce, Goodwin, Alexander & Linville,
                       Solicitation Number GS-07P-94-JUC-0011

12/09/94   A52417      Preaward Audit of Architect and Engineering Services
                       Contract: Stone Marraccini Patterson, Solicitation
                       Number GS-09P-94-KTC-0027

12/12/94   A51207      Preaward Audit of Architect and Engineering Services
                       Contract: The Freelon Group, Incorporated, Solicitation
                       Number GS-04P-94-EXC-0040

12/12/94   A51208      Preaward Audit of Architect and Engineering Services
                       Contract: Hellmuth, Obata & Kassabaum, Inc.,
                       Solicitation Number GS-04P-92-EXC-0017

12/12/94   A53609      Preaward Audit of Architect and Engineering Services
                       Contract: McMullan & Associates, Inc., Solicitation
                       Number GSIIP94EGDOOI6

12/15/94   A40656      Audit of a Claim for Additional Costs: Volmar
                       Construction, Inc., Contract Number GS-02P-91-
                       CUC-0035

12/16/94   A50616      Preaward Audit of Architect and Engineering Services
                       Contract: Lakhani & Jordan Engineers, P.C.,
                       Solicitation Number GS-02P-94-CUC-0069(N)

12/16/94   A51510      Preaward Audit of Architect and Engineering Services
                       Contract: Guidry Beazley Ostteen Architects, Partner in
                       the Lafayette Design Group, Joint Venture, Proposed
                       Contract Number GS-07P-94-JUC-0009

12/21/94   A51512      Preaward Audit of Architect and Engineering Services
                       Contract: Eskew Filson Architects, Partner in the
                       Lafayette Design Group Joint Venture, Proposed
                       Contract Number GS-07P-94-JUC-0009

12/22/94   A52411      Preaward Audit of Cost or Pricing Data: Abide
                       International, Inc., Solicitation Number GS-09P-94-
                       NPC-0031

12/22/94   A52532      Preaward Audit of Architect and Engineering Services
                       Contract: SEM Design Corporation, Solicitation
                       Number GS-09P-94-KTC-0030




36 Semiannual Report To The Congress
                    Appendix 11- Audit R ort Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

12/29/94   A53612     Pre award Audit of Change Order Proposal: G&B
                      Environmental, Inc., a Subcontractor to A. S.
                      McGaughan Company, Inc., Contract Number
                      GS-IIP91MKC-0196 U

01/03/95   A51812     Audit of Claim for Increased Costs: Spirco
                      Environmental, Inc.. Subcontractor to BSI
                      Constructors, Inc., Contract Number GSOOP89GYC0192

01/05/95   A41842     Audit of Claim for Increased Costs: Guarantee
                      Electrical Company, Subcontractor to BSI Constructors,
                      Inc., Contract Number GS06P89GYC-0 192

01/06/95   A50617     Preaward Audit of Architect and Engineering Services
                      Contract: Hardy Holzman pfeiffer Associates, Contract
                      Number GS-09P-94-KTC-0031 (NAZ04600)

01/09/95   A41841     Audit of Claim for Increased Costs: BSI Constructors,
                      Inc., Contract Number GS06P89GYC0192

01/09/95   A51809     Audit of Claim for Increased Costs: Gross Mechanical
                      Contractors, Inc., Subcontractor to BSI Constructors,
                      Inc., Contract Number GS06P89GYC-0 192

01/lO/95   A50615     Preaward Audit of Architect and Engineering
                      Services Contract: Narov Associates, Solicitation Number
                      GS-02P-93-CUC-0062{NEG)

01/lO/95   A51217     Preaward Audit of Cost or Pricing Data: Gilbane Building
                      Company, Solicitation Number GS-07P-94-JUC-0013

01/12/95   A50614     Preaward Audit of Architect and Engineering Services
                      Contract: Richard Meier & Partners, Solicitation
                      Number GS-09P-94-KTC-0030(NAZ03600)

01/18/95   A52533     Preaward Audit of Architect and Engineering Services
                      Contract: Grommes-Meade Engineering, Inc., Sub-
                      contractor to Langdon Wilson Architecture Planning
                      Interiors, Solicitation Number GS-09P-94-KTC-0030

01/20/95   A50608     Preaward Audit of a Change Order Proposal: Leewen
                      Contracting Corporation, Contract Number GS-02P-93-
                      CUC-OlOO(N)




                                                                                 Office of Inspector General 37
                    Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                                   .~-~.




                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

01/23/95   A52536      Preaward Audit of Architect and Engineering Services
                       Contract: Langdon Wilson Architecture, Solicitation
                       Number GS-09P-94-KTC-0030

01/24/95   A43494      Audit of Claim for Increased Cost: The George Hyman
                       Construction Company, Contract Number GS-IIP92-
                       MKC0062

01/24/95   A51218      Preaward Audit of Architect and Engineering Services
                       Contract: Ray Huff Architects P.A., Solicitation Number
                       GS-04P-94-EXC-0033

01/24/95   A51220      Preaward Audit of Architect and Engineering Services
                       Contract: Stevens & Wilkinson of S. C., Inc., Consultant
                       to Ray Huff Architects P.A., Solicitation Number
                       GS-04P-94-EXC-0033

01/25/95   A40673      Preaward Audit of a Claim: BPf Properties, Foley Square,
                       L.P., Contract Number GS-02P-91CUC0057

01/26/95   A51519      Preaward Audit of Architect and Engineering Services
                       Contract: Gausman & Moore Associates, Inc., Consult-
                       ant to Leonard Parker Associates, Architects,
                       Solicitation Number GS05P94GBD0020

01/27/95   A51520      Preaward Audit of Architect and Engineering Services
                       Contract: Oftedal, Locke, Broadston & Associates, Inc.,
                       Consultant to Leonard Parker Associates, Architects,
                       Solicitation Number GS05P94GBD0020

01/31/95   A43499      Audit of Claim for Increased Costs: MRC Construction,
                       Inc., GSBCANumber 12745

02/01/95   A40945      Audit of a Claim: Contarino Brothers, Inc.,
                       Subcontractor to SAE Americon, Inc., Contract Number
                       GS-03P-91-CDC-0006

02/01/95   A51518      Preaward Audit of Change Order Proposal: Setterlin
                       Construction Company, Contract Number GS05P94-
                       GBC0002(NEG)

02/06/95   A53620      Preaward Audit of Architect and Engineering Services
                       Contract: Scharf-Godfrey Inc., Solicitation Number
                       GS IIP94EGDOO 13




38 Semiannual Report To The Congress
                       endix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendation.s
                                                                               ~--.-                    --
                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                           Title                               Better Use        Costs

02/15/95   A50610   Preaward Audit of Architect and Engineering Services
                    Contract: Haines Lundberg Waehler, Solicitation
                    Number GS-02P-93-CUC-0062(N)

02/15/95   A50627   Preaward Audit of Architect and Engineering Services
                    Contract: Hardie & Associates Consulting Engineers,
                    Solicitation Number GS-02P-93-CUC-0062(NEG)

02/15/95   A53615   Audit of Claim for Increased Cost: Dynalectric
                    Company, Subcontractor to The George Hyman
                    Construction Co., Contract Number GS-IIP92MKC-
                    0062

02/17/95   A50618   Preaward Audit of Architect and Engineering Services
                    Contract: Cesar Pelli & Associates, Solicitation Number
                    GS-02P-93-CUC-0062(N)

02/22/95   A53622   Preaward Audit of Cost or Pricing Data: L. H. Cranston
                    & Sons, Inc., A Subcontractor to Donohoe Construc-
                    tion Company, Inc., Solicitation Number GS-l1B-30 13B

02/28/95   A40944   Audit of a Claim: Dan LePore & Sons, Incorporated,
                    Contract Number GS-03P-91-CDC-0006

03/03/95   A52517   Preaward Audit of Cost or Pricing Data: ATL, Inc.,
                    Solicitation Number GS-09P-94-KTC-0044

03/06/95   A52516   Preaward Audit of Cost and Pricing Data: O'Brien-
                    Kreitzberg and Associates, Inc., Solicitation Number
                    GS-09P-94-KTC-0046

03/09/95   A50328   Preaward Audit of Architect and Engineering Services
                    Contract: Kallman McKinnell & Wood Architects, Inc.,
                    Solicitation Number GS-05P-94-GBC-0047

03/lO/95   A53619   Audit of Claim for Increased Cost: Manganaro
                    Corporation, Maryland, Contract Number GS-IIP-
                    92MKC0062

03/15/95   A51529   Preaward Audit of Architect and Engineering Services
                    Contract: Karlsberger Architects, Inc., Partner in Joint
                    Venture, Kallmann McKinnell & Wood Architects, Inc.,
                    and Karlsberger Architects, Inc., Proposed Contract
                    Number GS-05P-94-GBC-0047




                                                                                 Office of Inspector General 39
                    Appendix //- Audit Report Register
                                                                                           Fi:mmcial
                                                                                      Recommendations
                                                                                                .-----~----




                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

03/15/95   A51530      Preaward Audit of Architect & Engineering Services
                       Contract: Korda/Nemeth Engineering, Inc., Consultant
                       to the Joint Venture, Kallmann McKinnell & Wood
                       Architects, Inc. & Karlsberger Architects, Inc., Proposed
                       Contract No. GS-05P-94-GBC-0047

03/17/95   A53628      Preaward Audit of Architect and Engineering Services
                       Contract: Florance Eichbaum Esocoff King Architects,
                       Solicitation Number GS IIP94EGC0023

03/20/95   A50621      Preaward Audit of Architect and Engineering Services
                       Contract: Consentini Associates, Solicitation Number
                       GS-02P-93-CUC-0062(N)

03/20/95   A51822      Pre award Audit of Cost or Pricing Data: Air Masters
                       Corporation, Subcontractor to Mosley Construction, Inc.,
                       Solicitation Number GS06P94GYC0082(N)

03/20/95   A53627      Preaward Audit of Claim for Increased Costs: Stromberg
                       Metal Works, Inc., Contract No. GS-IIP-90MKC-
                       0199/IDC 68201

03/21/95   A53631      Preaward Audit of Architect and Engineering Services
                       Contract: GHT Chartered Consulting Engineers,
                       Solicitation Number GS IIP94EGC0023

03/22/95   A50629      Preaward Audit of Cost or Pricing Data: John Milner
                       Associates, Inc., Contract Number GS-02P-91-CUC-
                       0069(N)

03/24/95   A50334      Preaward Audit of Architect and Engineering Services
                       Contract: The Architects Forum, Inc., Solicitation
                       Number GS-OIP-95-BW-0003

03/24/95   A50928      Preaward Audit of Architect and Engineering Services
                       Contract: Roy F. Weston, Inc., Contract Number
                       GSIIP94EGCOOI1

03/24/95   A52547      Preaward Audit of Architect and Engineering Services
                       Contract: Lerch Bates Hospital Group, Inc., Solicitation
                       Number GS-IIP-94-EGC-OO 11

03/28/95   A51230      Preaward Audit of Architect and Engineering Services
                       Contract: Hanscomb Associates, Incorporated,
                       Solicitation Number GS-IIP-94-EGC-00 11




40 Semiannual Report To The Congress
                                    //- Audit Report Regis
                                                                                        Financial
                                                                                   Recommendations
                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                           Title                               Better Use        Costs

03/28/95   A52498   Preaward Audit of Architect and Engineering Services
                    Contract: Yost Grube Hall Architecture P.C., Solicitation
                    Number GS-1 OP-94-LTC-0049

03/28/95   A52499   Preaward Audit of Architect and Engineering Services
                    Contract: Glumac International, Solicitation Number
                    GS-10P-94-LTC-0049

03/29/95   A51531   Preaward Audit of Cost or Pricing Data: Huber, Hunt &
                    Nichols, Inc., Solicitation Number GS-09P-94-KTC-
                    0044

03/30/95   A51225   Preaward Audit of Small Business Administration 8(A)
                    Pricing Proposal: Ebony Glass & Mirror Company,
                    Solicitation Number GS-04P-94-EXC-0062

03/30/95   A536°~   Preaward Audit of Architect and Engineering Services
                    Contract: System Performance Corporation, Solicitation
                    Number GS11P95EGD0004

03/30/95   A53634   Preaward Audit of Sole Source Contract: TEX/AM
                    Construction Co., Inc., Solicitation Number GS11P94-
                    MKC0062

FSS        INTERNAL AUDITS
10/25/94   A31862   Audit of the Federal Supply Service's Multiple Award
                    Schedule Items to Stock Program

11/21/94   A31823   Audit of GSA's Travel Services Programs

11/30/94   A41550   Audit of the Commercial Disposal of GSA Vehicles,
                    Region 5

12/23/94   A53006   Audit of Regional Fleet Management Center Operations

02/10/95   A42564   Audit of Billback Amounts for Damaged Vehicles,
                    Pacific Rim Region

02/27/95   A42143   Audit of Internal Controls Over Surplus Personal
                    Property Sales, Region 7




                                                                                 Office of Inspector General 41
                    Appendix //- Audit Report Register
                                                                                      Financial
                                                                                 Recommendations
                                                                              --~--~-




                                                                              Funds To      Questioned
Date of    Audit                                                              Be Put To    (Unsupported)
Report     Number                            Title                            Better Use        Costs


FSS         CONTRACT AUDITS
10/05/94   A40664      Preaward Audit of Multiple Award Schedule Contract:
                       Eastman Kodak Company, Solicitation Number FCGS-
                       X5-94-0039-B-N

10/06/94   A40345      Preaward Audit of Multiple Award Schedule Contract:
                       International Equipment Company, Solicitation
                       Number FCGS-Y8-94-0040

10/06/94   A41575      Preaward Audit of Cost or Pricing Proposal: Mobium,
                       Inc.

10/06/94   A42487      Preaward Audit of Multiple Award Schedule Contract:
                       Zenger-Miller Achieve, Solicitation Number 2FYG-
                       JI -94-0004-B

10/06/94   A42573      Preaward Audit of Multiple Award Schedule Contract:
                       Avon Marine, Inc., Solicitation Number 7FXI-T5-94-
                       1902-B

10/06/94   A42575      Limited Audit of Government Billings: Zenger-Miller                      $3,977
                       Achieve, Contract Number GS-02F-3037A

10/11/94   A42520      Preaward Audit of Cost or Pricing Data: Munson
                       Manufacturing, Inc., Solicitation Number 7FXI-T5-93-
                       1901-B

10/13/94   A41258      Preaward Audit of Multiple Award Schedule Contract:
                       Organon Teknika Corporation, Solicitation Number
                       FCGS-X5-94-0039-B-N

10/13/94   A42574      Limited Audit of Government Billings: Meridian                           $3,951
                       Instruments, Inc., Contract Number GS-OOF-47 44A

10/13/94   A51209      Limited Audit of Government Billings: Organon                           $12,547
                       Teknika Corporation, Contract Number GS-00F-2560A

10/13/94   A51210      Limited Audit of Government Billings: Organon                           $20,115
                       Teknika Corporation, Contract Number GS-00F-7007A

10/14/94   A42567      Preaward Audit of Multiple Award Schedule Contract:
                       Meridian Instruments, Inc., Solicitation Number
                       FCGS-Y8-94-0040-B-N




42 Semiannual Report To The Congress
                    Appendix 11- Audit Report Register
                                                                                       Finamcial
                                                                                  Recommendations
                                                                              ~-~~.




                                                                               Funds To      Qu.estioned
Date of    Audit                                                               Be Put To    (Unsu.pported)
Report     Number                           Title                              Better Use        Costs

10/18/94   A42566     Preaward Audit of Multiple Award Schedule Contract:
                      Bio-Rad Laboratories, Solicitation Number FCGS-
                      X5-94-0039-B-N

10/28/94   A40348     Preaward Audit of Multiple Award Schedule Contract:
                      Jeol USA, Inc., Solicitation Number FCGS-Y8-94-
                      0040-B-N

10/31/94   A40669     Preaward Audit of Multiple Award Schedule Contract:
                      New Brunswick Scientific Company, Inc., Solicitation
                      Number FCGS-Y8-94-oo40-B-N

11/01/94   A42548     Limited Scope Postaward Audit of Multiple Award
                      Schedule Contract: Peninsula Laboratories, Inc.,
                      Contract Number GS-00F-4 745A

11/03/94   A40347     Preaward Audit of Multiple Award Schedule Contract:
                      American Management Association, Solicitation
                      Number 2FYG-JI-94-0004

11/04/94   A40665     Preaward Audit of Multiple Award Schedule Contract:
                      Carl Zeiss, Incorporated, Solicitation Number FCGS-
                      Y8-94-0040-B-N

11/07/94   A51211     Limited Audit of End-of-Contract Aggregate Discount:                       $20,649
                      Neotronics of North America, Incorporated, Contract
                      Number GS-OOF-2304A

11/08/94   A42470     Price Adjustments on Multiple Award Schedule
                      Contract: Finnigan Corporation, Contract Number GS-
                      OOF-5911A for the Interim Period January 1, 1994
                      Through May 31, 1996

11/08/94   A43498     Preaward Audit of Multiple Award Schedule Contract:
                      Skatron Instruments, Inc., Solicitation Number FCGS-
                      X5-94-0039-B-N

11/09/94   A41580     Preaward Audit of Multiple Award Schedule Contract:
                      National Education Training Group, Inc., Solicitation
                      Number 2FYG-JI -94-0004-B

11/09/94   A52418     Limited Audit of Government Billings: Peninsula                             $1,900
                      Laboratories, Inc., Contract Number GS-00F-4745A




                                                                                Office of Inspector General 43
                    A endix II-Au t Report
                                                                                        Financial
                                                                                   Recommendations- _ . _ -
                                                                                -----~-"




                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                             Title                             Better Use        Costs

11/16/94   A40324      Preaward Audit of Multiple Award Schedule Contract:
                       Nova Biomedical Corporation, Solicitation Number FCGS-
                       X5-94-0039

11/16/94   A40951      Preaward Audit of Multiple Award Schedule Contract:
                       E.I. DuPont DeNemours and Company, Inc.,
                       Solicitation Number FCGS-X5-94-0039-B-N

11/17/94   A40953      Preaward Audit of Multiple Award Schedule Contract:
                       E.I. DuPont DeNemours and Company, Inc.,
                       Solicitation Number FCGS-Y8-94-0040-B-N

11/17/94   A41576      Preaward Audit of Multiple Award Schedule Contract:
                       Baxter Healthcare Corporation, Solicitation Number
                       FCGS-X5-94-0039-B-N

11/18/94   A51509      Preaward Audit of Multiple Award Schedule Contract:
                       Lyon Metal Products, Inc., Solicitation Number 3FNH-
                       94-F502-N

11/21/94   A50312      Preaward Audit of Multiple Award Schedule Contract:
                       Chartpak, Solicitation Number 2FYS-AP-94-0001B

11/22/94   A42525      Preaward Audit of Cost or Pricing Data: Wajax-Pacific
                       Fire EqUipment, Inc., Solicitation Number FCXA-IC-
                       93IFS-B

11/23/94   A40668      Preaward Audit of Multiple Award Schedule Contract:
                       Nikon, Incorporated, Solicitation Number FCGS-Y8-94-
                       0040-B-N

11/23/94   A41259      Preaward Audit of Multiple Award Schedule Contract:
                       Firearms Training Systems, Incorporated, Solicitation
                       Number 2FYG-JI-94-0004-B

11/23/94   A50314      Postaward Audit of Government Billings Under Contract                      $19,321
                       Number GS00F2482A: Nova Biomedical Corporation

11/30/94   A42568      Preaward Audit of Multiple Award Schedule Contract:
                       Beckman Instruments, Inc., Solicitation Number
                       FCGS-X5-94-0039-B-N

11/30/94   A51515      Preaward Audit of Multiple Award Schedule Contract:
                       Office Products International, Solicitation Number
                       2FYS-AP-94-000 1B




44 Semiannual Report To The Congress
                     Appen            II . . . Audit R ort Regis
                                                                                        Financial
                                                                                   Recommendations -.---~,~--




                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                            Title                              Better Use        Costs

12/01/94   A40932     Postaward Audit of Multiple Award Schedule Contract:                       $21,720
                      Ricoh Corporation, Contract Number GS-OOF-1972A for
                      the Pertod October 1, 1990 Through September 30, 1993

12/05/94   A00342     Postaward Audit of Multiple Award Schedule Contract:                    $1,754,902
                      Perkin-Elmer Corporation, Contract No. GS-00F-93781
                      for the Pertod May 18, 1987 Through April 30, 1990

12/05/94   AI0218     Postaward Audit of Multiple Award Schedule Contract:                      $444,859
                      Perkin-Elmer Corporation, Contract No. GS-OOF-
                      03601 for the Interim Period June 1, 1988 Through
                      April 30, 1990

12/05/94   A43496     Preaward Audit of Multiple Award Schedule Contract:
                      Dynatech Laboratortes, Inc., Solicitation Number FCGS-
                      X5-94-0039-B-N

12/06/94   A43475     Preaward Audit of Cost or Pricing Data: Zodiac of North
                      America, Inc., Solicitation Number 7FXI-T5-94-1902-B

12/14/94   AS0612     Preaward Audit of Multiple Award Schedule Contract:
                      Innerspace Technology, Inc., Solicitation Number
                      GS-03F-94-AYC-0041

12/19/94   AS 1806    Postaward Audit of Multiple Award Schedule Contract:                       $39,770
                      Wieland Furniture Company, Contract No. GS-OOF-
                      S332A for the Interim Period May 13, 1991 Thru
                      April 30, 1993 & Contract No. GS-00F-6295A for the
                      Interim Pertod August 26, 1991 Thru April 30, 1993

12/20/94   A31544     Postaward Audit of Multiple Award Schedule Contract:                      $174,192
                      Nicolet Instrument Corporation, Contract Number
                      GS-00F-2456A, June 8, 1990 Through April 30, 1994

12/20/94   AS0310     Preaward Audit of Multiple Award Schedule Contract:
                      Lista International Corporation, Solicitation Number
                      3FNH -94-FS02-N

12/22/94   A40344     Preaward Audit of Multiple Award Schedule Contract:
                      Instrumentation Laboratmy, Solicitation Number FCGS-
                      X5-94-0039

12/22/94   A41837     Postaward Audit of Multiple Award Schedule Contract:                       $11,405
                      Quanta Corporation, Contract Number GS-03F-1 026A
                      for the Pertod August 14, 1991 Through March 31, 1994




                                                                                Office of Inspector General 45
                    Appendix //- Audit R ort Regis r
                                                                                        Financial
                                                                                   Recommendations
                                                                                ~---~-----~--------~---.-~




                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                             Title                             Better Use        Costs

12/22/94   A53613      Preaward Audit of Multiple Award Schedule Contract:
                       Congressional Information Service, Inc., Solicitation
                       Number 2FYG-LG-940002-B

12/23/94   A51513      Preaward Audit of Multiple Award Schedule Contract:
                       TImeMed Labeling Systems, Inc., Solicitation Number
                       2FYS-AP-94-000 IB

12/27/94   A50611      Preaward Audit of Multiple Award Schedule Contract:
                       Moody's Investors Service, Solicitation Number 2FYG-
                       LG-940002-B

12/30/94   A51213      Preaward Audit of Small Business Administration 8(A)
                       Pricing Proposal: Trinity Furniture, Incorporated,
                       Solicitation Number 3FNO-94-M109-N-9-30-94

12/30/94   A52415      Preaward Audit of Multiple Award Schedule Contract:
                       Grass Valley Group, Inc., Solicitation Number GS-03F-
                       94-AYC-0041

01/04/95   A52502      Limited Audit of Government Billings: RGB Spectrum,                        $7,160
                       Contract Number GS-03F-2032A

01/06/95   A52537      Limited Scope Postaward Audit: Bio-Rad Laboratories,                       $5,948
                       Contract Number GS-00F-2516A

01/10/95   A21884      Postaward Audit of Multiple Award Schedule Contract:                    $399,914
                       Western Lithotech, Contract Number GS-OOF-06200 for
                       the Period October 24, 1988 Through June 30, 1991

01/12/95   A53606      Preaward Audit of Multiple Award Schedule Contract:
                       Life Technologies, Inc., Solicitation Number FCGS-
                       X5-94-0039-B-N

01/13/95   A51219      Preaward Audit of Multiple Award Schedule Contract:
                       S & W Manufacturing, Incorporated, Solicitation
                       Number 2FYS-AP-94-0001B

01/17/95   A51521      Preaward Audit of Multiple Award Schedule Contract:
                       Forma SCientific, Inc., Solicitation Number FCGE-94-
                       C9-0144-N

01/18/95   A50319      Preaward Audit of Multiple Award Schedule Contract:
                       O.RE. International, Incorporated, Solicitation Number
                       GS-03F-94-AYC-0041




46 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                      Financial
                                                                                 R.ecommendations
                                                                              Funds To      Questioned
Date of    Audit                                                              Be Put To    (Unsupported)
R.eport    Number                           Title                             Better Use        Costs

01/18/95   A50322     Postaward Audit of Government Billings Under Contract                      $9,609
                      Number GSOOF5729A: O.R.E. International, Inc.

01/18/95   A50609     Preaward Audit of Multiple Award Schedule Contract:
                      Xerox Corporation, Solicitation Number 2FYP-DW-
                      94-0007-B

01/18/95   A52112     Pre award Audit of Cost and Pricing Data: Monaco
                      Enterprises, Inc., Contract Number GS-07F-3275A

01/20/95   A42569     Preaward Audit of Multiple Award Schedule Contract:
                      Beckman Instruments, Inc., Solicitation Number
                      FCGS-Y8-94-0040- B-N

01/23/95   A00041     Postaward Audit of Multiple Award Schedule Contract:                     $931,109
                      Carsonite International, Inc., Contract Number GS-
                      07F-14533

01/23/95   A00042     Postaward Audit of Multiple Award Schedule Contract:                     $205,151
                      Carsonite International, Inc., Contract Number
                      GS-07F-110 10

01/24/95   A42571     Preaward Audit of Multiple Award Schedule Contract:
                      Beckman Instruments, Inc., Solicitation Number FCGS-
                      X5-94-0039-B-N

01/24/95   A53618     Preaward Audit of Multiple Award Schedule Contract:
                      Bureau of National Affairs, Inc., Solicitation Number
                      2FYG-LG-940002-B

01/25/95   A33429     Postaward Audit of Multiple Award Schedule Contracts:                  $1,507,850
                      Rubbermaid Commerical Products, Inc.

01/26/95   A50321     Preaward Audit of Multiple Award Schedule Contract:
                      Barker Advertising Specialty Company, Solicitation
                      Number 7FXG-H8-94-9903-B

01/26/95   A50327     Postaward Audit of Government Billings Under Contract                      $6,053
                      Number GS07F6121A: Barker Advertising Specialty
                      Company

02/01/95   A50613     Preaward Audit of Multiple Award Schedule Contract:
                      Newport/Klinger, Solicitation Number GS-03F-94-
                      AYC-0041




                                                                               Office of Inspector General 47
                    Appendix 11- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                               Title                               Better Use        Costs

02/03/95   A51524      Preaward Audit of Cost or Pricing Data: All Line, Inc.,
                       Subcontractor to C & S Industrial Supply, Inc.,
                       Solicitation Number 7FXI -T6-94-400 I-N

02/06/95   A51817      Preaward Audit of Multiple Award Schedule Contract:
                       Labconco Corporation, Solicitation Number FCGE-
                       94-C9-0 144-N

02/07/95   A53624      Limited Postaward Audit of Government Billings: Life                           $3,133
                       Technologies, Inc., Contract Number FCGS-X9-90-
                       0023-B-N

02/08/95   A51527      Preaward Audit of Multiple Award Schedule Contract:
                       DEC Art Designs, Inc., Solicitation Number GS-03F-
                       95-AYC-0002

02/08/95   A53607      Preaward Audit of Multiple Award Schedule Contract:
                       Lexmark International, Inc., Solicitation Number 2FYS-
                       AP-94-000 1B

02/09/95   A52459      Preaward Audit of Cost or Prtcing Data: Productivity Plus,
                       Inc., Solicitation Number 2FYS-AP-94-000lB

02/14/95   A50316      Preaward Audit of Multiple Award Schedule Contract:
                       Raytheon Marine Company, Solicitation Number GS-
                       03F-94-AYC-0041

02/14/95   A50318      Preaward Audit of Multiple Award Schedule Contract:
                       American Lightwave Systems, Inc., Solicitation Number
                       GS-03F-94-AYC-0041

02/14/95   A50912      Preaward Audit of Multiple Award Schedule Contract:
                       McNaughton Book Service, Solicitation Number 2FYS-
                       AN-94-0016-M

02/14/95   A51516      Preaward Audit of Multiple Award Schedule Contract:
                       KI, Solicitation Number 3FNO-94-M205-NB-9-29-94

02/15/95   A52118      Preaward Audit of Multiple Award Schedule Contract:
                       Credit Bureau Reports, Inc., Solicitation Number
                       FCXS-FC-940005-N

02/15/95   A53625      Preaward Audit of Multiple Award Schedule Contract:
                       Leonard's Draperies, Inc., Solicitation Number GS-03F-
                       95-AYC-0002




48 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                            Title                             Better Use        Costs

02/16/95   A52125     Preaward Audit of Multiple Award Schedule Contract:
                      Southwest Decor, Solicitation Number GS-03F-95-AYC-
                      0002

02/17/95   A50920     Price Adjustments on Multiple Award Schedule
                      Contract: Allstate Office Products, Incorporated,
                      Contract Number GS-25F-4087B for the Interim
                      Period December 1, 1994 through March 31, 1998

02/17/95   A52543     Preaward Audit of Multiple Award Schedule Contract:
                      F11RSystems, Inc., SolicttationNo. GS-03F-94-AYC-0041

02/17/95   A53623     Preaward Audit of Multiple Award Schedule Contract:
                      Yardstick Interiors, Solicitation Number GS-03F-
                      95-AYC-0002

02/21/95   A41578     Price Adjustments on Multiple Award Schedule
                      Contract: Allsteel, Inc., Contract Number G8-00F-5073A
                      for the Interim Period March 1, 1995 Through
                      September 30, 1996

02/22/95   A50324     Preaward Audit of Multiple Award Schedule Contract:
                      Thomas W. Raftery, Inc., Solicitation Number GS-03F-
                      95-AYC-0002

02/22/95   A50325     Preaward Audit of Multiple Award Schedule Contract:
                      Warren, Gorham & Lamont, Solicitation Number 2FYG-
                      LG-940002-B

02/22/95   A51223     Preaward Audit of Multiple Award Schedule Contract:
                      Speedline Athletic Wear, Incorporated, Solicitation
                      Number 7FXG-K4-94-841O-B

02/23/95   A21273     Limited Postaward Audit of Multiple Award Schedule                        $87,163
                      Contract: Game Time, Incorporated, Contract Number
                      GS-07F-16891

02/23/95   A50910     Preaward Audit of Multiple Award Schedule Contract:
                      Stanley-Vidmar, Inc., Solicitation Number 3FNH-94-
                      F502-N

02/24/95   A51815     Preaward Audit of Multiple Award Schedule Contract:
                      Contract Draperies, Inc., Solicitation Number GS-03F-
                      95-AYC-0002




                                                                               Office of Inspector General 49
                    A      en           //- Audit
                                                                                          Fbumcial
                                                                                     Recommendations
                                                                                                   ------
                                                                                  Funds To     Questioned
Date of    Audit                                                                  Be Put To   (Unsupported)
Report     Number                              Title                              Better Use       Costs

02/24/95   A52460       Preaward Audit of Multiple Award Schedule Contract:
                        Berg Systems International, Inc., Solicitation Number
                        GS-03F-94-AYC-0041

02/27/95   A52416       Preaward Audit of Multiple Award Schedule Contract:
                        lAC Industries, Solicitation Number 3FNH-94-F502-N

03/02/95   A50624       Preaward Audit of Multiple Award Schedule Contract:
                        Dun & Bradstreet, Corporation, Solicitation Number
                        FCXS-FC-940005-N

03/03/95   A50622       Preaward Audit of Multiple Award Schedule Contract:
                        Allentown Caging Equipment Company, Inc.,
                        Solicitation Number FCGE-94-C9-0 144-N

03/06/95   A22160       Postaward Audit of Multiple Award Schedule Contract:                     $155,884
                        Joerns Healthcare, Inc., Contract Number GS-OOF-
                        07366

03/07/95   A50326       Preaward Audit of Multiple Award Schedule Contract:
                        Ascom Hasler Mailing Systems, Inc., Solicitation Number
                        FCGE-94-C1-0147B-N

03/10/95   A52441       Preaward Audit of Multiple Award Schedule Contract:
                        Intermec Corporation, Solicitation No. 2FYS-AP-94-0001B

03/15/95   A42136       Postaward Audit of Multiple Award Schedule Contract:                     $111,541
                        Uniforms Manufacturing, Inc., Contract Number
                        GS-07F-40 IlA

03/20/95   A50628       Preaward Audit of Multiple Award Schedule Contract:
                        Research Institute of America, Solicitation Number
                        2FYG-LG-940002-B

03/20/95   A51224       Preaward Audit of Multiple Award Schedule Contract:
                        Lora! Test and Information Systems: Solicitation Number
                        GS-03F-94-AYC-004l

03/22/95   A51532       Preaward Audit of Multiple Award Schedule Contract:
                        Cummins-Allison Corporation, Solicitation Number
                        FCGE-94-CI-0147B-N

03/23/95   A51526       Preaward Audit of Multiple Award Schedule Contract:
                        ADM International, Inc., Solicitation Number GS-03F-
                        95-AYC-0002




50 Semiannual Report To The Congress
                                    II-Au
                                                                                        Financial
                                                                                   Recommendations
                                                                               -----              ------
                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                           Title                               BeUer Use         Costs

03/24/95   A50626   Preaward Audit of Multiple Award Schedule Contract:
                    The C-Mor Company, Solicitation Number GS-03F-
                    95-AYC-0002

03/30/95   A50630   Preaward Audit of Multiple Award Schedule Contract:
                    Michaels Textile Company, Inc., Solicitation Number
                    GS-03F-95-AYC-0002

03/30/95   A50642   Limited Scope Postaward Audit of Government Billings                            $1,533
                    Under Contract Number GS-02F-4058A: Research
                    Institute of America

03/30/95   A50916   Preaward Audit of Multiple Award Schedule Contract:
                    Office Depot, Incorporated, Solicitation Number 2FYS-
                    AP-94-0001B

03/30/95   A52421   Preaward Audit of Multiple Award Schedule Contract:
                    Neff Instrument Corporation, Solicitation Number
                    FCGS-Y5-95-0042-B-N

03/30/95   A52545   Preaward Audit of Multiple Award Schedule Contract:
                    TRW Information Systems Group, Business Credit
                    Services Division, Solicitation Number FCXS-FC-
                    940005-N-11-30-94

ITS        INTERNAL AUDITS
12/02/94   A40924   Audit of the GSA Purchase of Telecommunications
                    Services (POTS) Program

12/08/94   A40341   Audit of Contracting Officers' Technical Representatives
                    Activities

12/27/94   A43042   Audit of Contract Award Procedures for Computer
                    Maintenance Services

01/25/95   A33720   Audit of GSA Delegations of Procurement Authority for
                    Automated Data Processing Resources

ITS        CONTRACT AUDITS
10/03/94   A40339   Preaward Audit of Multiple Award Schedule Contract:
                    Picturetel Corporation, Solicitation Number GSC-KES-
                    00065




                                                                                 Office of Inspector General 51
                                       //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                            Title                             Better Use        Costs

10/05/94   A43488      Preaward Audit of Multiple Award Schedule Contract:
                       Mobile Telesystems, Inc., Contract Number GSOOK-
                       93AGS0653

10/06/94   A42555      Preaward Audit of Multiple Award Schedule Contract:
                       Silicon Graphics, Incorporated, Contract Number
                       GSOOK94AGS5993

10/06/94   A42557      Preaward Audit of Multiple Award Schedule Contract:
                       Calcomp Incorporated, Contract Number GSOOK94-
                       AGS5608 (Renewal)

10/12/94   A42570      Preaward Audit of Multiple Award Schedule Contract:
                       Micro Decisionware, Inc., Solicitation Number KESO-
                       94-0001 (4-19)

10/13/94   A40340      Preaward Audit of Multiple Award Schedule Contract:
                       Executone Information Systems, Inc., Contract
                       Number GS-00K-94AGS-0432

10/26/94   A00763      Postaward Audit of Multiple Award Schedule Contract:                  $1,339,464
                       Tandem Computers, Inc., Contract Number GSOOK-
                       86AGS5719 (PS01)

10/26/94   A22479      Postaward Audit of Multiple Award Schedule Contract:                  $1,199,444
                       Tandem Computers, Inc., Contract Number GS-OOK-
                       86AGS5719 (PS02)

10/26/94   A22480      Postaward Audit of Multiple Award Schedule Contract:                  $1,078,972
                       Tandem Computers, Inc., Contract Number GSOOK-
                       89AGS5519

10/26/94   A42565      Preaward Audit of Multiple Award Schedule Contract:
                       McBride & Associates, Inc., Solicitation Number KESO-
                       94-0001 (4-19)

10/31/94   A42480      Preaward Audit of Multiple Award Schedule Contract:
                       Axil Workstations, Solicitation Number KESO-94-0001
                       (4-19)

11/09/94   A40674      Pre award Audit of Change Order Proposal: AT&T
                       Communications, Contract Number GS-00K-89-
                       AHDOO08

11/22/94   A40332      Preaward Audit of Multiple Award Schedule Contract:
                       EMC Corporation, SoliCitation Number KESO-94-000 1



52 Semiannual Report To The Congress
                                    11- Audit Report Register
                                                                                      Financial
                                                                                 Recommendations  ----
                                                                              Funds To      Questioned
Date of    Audit                                                              Be Put To    (Unsupported)
Report     Number                          Title                              Better Use        Costs

11/22/94   A41831   Audit of Proposed 1993 Overhead Rates: U.S. Sprint
                    Communications Company, Contract Number GSOOK89-
                    AHD0009

11/23/94   A50313   Postaward Audit of Government Billings Under Contract                      $36,000
                    Number GSOOK92AGS5527: EMC Corporation

11/30/94   A43487   Report on Review of the Termination for Convenience
                    Claim, Contract No. GS-04K-93-BFD-0808: OAO
                    Corporation, Information Systems Support Division,
                    Greenbelt, Maryland

12/05/94   A43473   Preaward Audit of Multiple Award Schedule Contract:
                    Unisys Corporation, Solicitation Number KESO-94-000 1
                    (4-19)

01/24/95   A43485   Preaward Audit of Change Order Proposals: Bell Atlantic
                    Corporation, Contract Number GSOOK89ADHOO 11

02/17/95   A50311   Postaward Audit of Multiple Award Schedule Contract:                       $68,472
                    Picturetel Corporation, Contract Number GSOOK92-
                    AGS0413 for the Period October 1, 1991 to
                    September 30, 1992

02/17/95   A50317   Postaward Audit of Multiple Award Schedule Contract:                       $26,635
                    Picturetel Corporation, Contract Number GSOOK92-
                    AGS0413, First Renewal Year, for the Period October 1,
                    1992 Through September 30, 1993

02/22/95   A00417   Postaward Audit of Multiple Award Schedule Contract:                      $165,000
                    Landmark Systems Corporation, Contract No. GSOOK89-
                    AGS5526, for the Period October 1, 1988 Through
                    September 30, 1989

03/09/95   A53633   Preaward Audit of Cost or Pricing Data: American
                    Management Systems, Solicitation No. KECP-94001

03/15/95   A00180   Postaward Audit of Multiple Award Schedule Contract:                      $213,172
                    Federal Sales Service, Inc., Contract No. GSOOK88-
                    AGS0214 for the Period April 1, 1988, Through
                    April 30, 1989

03/15/95   AlO029   Postaward Audit of Multiple Award Schedule Contract:                       $70,307
                    Federal Sales Service, Inc., Contract No. GSOOK-
                    86AGS0237 for the Period May 20, 1986, Through
                    March 31, 1987



                                                                              Office of Inspector General 53
                    A endix //- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations---------
                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                               Title                               Better Use        Costs

03/15/95   A10030      Postaward Audit of Multiple Award Schedule Contract:                         $142,646
                       Federal Sales Service, Inc., Contract No. GSOOK87-
                       AGS0232 for the Period June 11, 1987, Through
                       March 31, 1988

03/17/95   A50908      Postaward Audit of Multiple Award Schedule Contract:                          $26,245
                       Bell Atlantic Network Services, Inc., Contract Number
                       GSOOK94AGS0412 for the Period October 14, 1993
                       Through September 30, 1994

03/30/95   A52540      Limited Audit of Government Billings: Plantronics, Inc.,                      $56,278
                       Contract Number GS-00K-92-AGS-0453 PS02

FTS2000 INTERNAL AUDITS
01/13/95   A23603      Audit of FfS2000 Modifications, AT&T Contract

OTHER       INTERNAL AUDITS
11/04/94   A42732      Limited Audit of the Chief Financial Officer's Fiscal Year
                       1994 Section 2 Federal Managers' Financial Integri1y Act
                       Assurance Statement

11/04/94   A42733      Limited Audit of the Office of Management Services and
                       Human Resources' Fiscal Year 1994 FMFIAAssurance
                       Statement

11/04/94   A43050      Limited Audit of the Information Technology Service's
                       Fiscal Year 1994 Section 2 Assurance Statement

11/04/94   A43051      Limited Audit of the Public Buildings Service's Fiscal
                       Year 1994 Section 2 Assurance Statement

11/04/94   A43053      Limited Audit of the Federal Supply Service Assurance
                       Statement, Fiscal Year 1994 Section 2

11/04/94   A43054      Limited Audit of the Office of FTS:!OOO Assurance
                       Statement, Fiscal Year 1994 Section 2

11/04/94   A43055      Limited Audit of the Federal Proper1y Resources Service
                       Assurance Statement, Fiscal Year 1994 Section 2

11/15/94   A42730      Consolidated Report of Fiscal Year 1994 FMFIA,
                       Section 2 Assurance Statements




54 Semiannual Report To The Congress
                    Appendix //- Audit R ort Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                             Title                                Better Use        Costs

12/08/94   A43027     Audit of State and Local Taxes on FfS2000 Services           $2,500,000     $2,500,000

12/28/94   A52710     Limited Audit of the Chief Financial Officer's Fiscal Year
                      1994 Section 4 Federal Managers' Financiallntegrily Act
                      Assurance Statement

01/03/95   A41832     Audit of GSA's Processing of Thrift Savings Plan
                      Transactions

01/13/95   A53009     Limited Review of the General Services Administration's
                      Compliance with the Byrd Amendment Restrictions on
                      Lobbying Activities

02/01/95   A42729     Oversight of CPA Contract, FY 1994 Financial
                      Statements

03/10/95   A42728     Audit of Public Buildings Service, Cost Per Occupiable
                      Square Foot Comparison

03/10/95   A52714     Audit of Federal Supply Service, Cost Per $100 Sales-
                      Stock

OTHER      CONTRACT AUDITS
10/31/94   A40659     Preaward Audit of a Claim: Bridgefield Associates, Inc.,
                      Contract Number N710 13

11/16/94   A43500     Audit of Termination Proposal: Pulsar Data Systems,
                      Inc., Contract Number GS-00A-1991 /3-92-1-6048

NON-GSA INTERNAL AUDITS
03/01/95   A53014     Audit of the Thomas Jefferson Commemoration
                      Commission

03/23/95   A53017     Audit of the Administrative Procedures of the
                      Committee for Purchase From People Who Are Blind or
                      Severely Disabled




                                                                                    Office of Inspector General 55
                          Appen                                       quentDeb


GSA's Office of the Chief Financial Officer provided the      • Began using the promissory note as the "course oflast
following information:                                          resort." In situations where it appears nothing may be
                                                                collected from a debtor, special effort is expended to
GSA Efforts to Improve Debt Collection                          negotiate a promissory note for whatever the debtor
During the period October 1, 1994 through March 31,             can afford to pay. As a result, instead of collecting noth-
1995, GSA efforts to improve debt collection and reduce         ing and writing off the debt, some money will be
the amount of debt written off as uncollectible focused         collected. This saves the Government time and money
on upgrading the collection function and enhancing debt         by not attempting to prosecute a debtor who cannot
management. These activities included the following:            or will not otherwise pay a debt.
• Began using preauthorized debits which are nowavail-
   able for use by GSA debtors who have signed                .. Continued to refer delinquent debtors to the U.S. Army
   promissory notes. This allows GSA to go directly to the       for inclusion in their booklet, "List of Contractors
   debtor's bank account and electronically withdraw             Indebted to the United States." This may prevent
   monthly payments.                                             contracting officers in GSA and the remainder of the
                                                                 Government from issuing new contracts to delinquent
fI Continued to participate in the IRS Tax Refund Offset
                                                                 debtors.
   Program. Tax refund offset is a tool the Government
   uses to collect a debt by withholding all or part of an    4&   Continued to initiate quarterly follow-ups with the
   income tax refund. GSA also participates in the Fed-            contracting offices concerning claims that are in
   eral Debt/Credit Forum which is a clearinghouse for             dispute. Quarterly follow-ups are also initiated on audit-
   ideas on how to collect non-federal debts.                      related items with the Office of Management Controls
fI Placed special emphasis on collecting debts by admin-           and Evaluation. Assistance is provided to the
   istrative offset. Collection of debts by this method has        contracting offices on the correct procedures for pro-
   been on the increase.                                           cessing claims.



Non-Federal Accounts Receivable

                                                       As of                     As of
                                                  October I, 1994            March 31, 1995             Difference

 Total Amounts Due GSA                              $46,503,700                $45,002,433            $(1,501,267)
 Amount Delinquent                                  $25,932,404                $23,769,614            $(2,162,790)

 Total Amount Written
 Off as Uncollectible
 Between 10/1/94 and
 3/31/95                                            $     169,243



Of the total amounts due GSA and the amounts                  1995, approximately $963,000 and $602,000
delinquent as of October 1, 1994 and March 31,                respectively, are being disputed.




56 Semiannual Report To The Congress
                      Appendix IV -- Reporting                                                            quiremen

The table below cross-references the reporting                                      in Senate Report No. 96-829 relative to the 1980
requirements prescribed by the Inspector General Act                                Supplemental Appropriations and Rescission Bill is
of 1978, as amended, to the specific pages where they are                           also cross-referenced to the appropriate page of the
addressed. The information requested by the Congress                                report.



                                                       Requirement                                                                                  Page

 Inspector Gene:m.l Act
      Section 4(a)(2)-Review of Legislation and Regulations ......................................................................... 18

      Section 5(a)(1)-8ignificant Problems, Abuses, and Deficiencies ........................................................... 2,6

      Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
        and Deficiencies .............................................................................................................................. 2,6

      Section 5(a)(3)-Prior Recommendations Not Yet Implemented ............................................................ 29

      Section 5(a)(4)-Matters Referred to Prosecutive Authorities ................................................................. 24

      Sections 5(a)(5) and 6(b)(2)-8ummary ofInstances Where Information Was Refused ......................... None

      Section 5(a)(6)-List of Audit Reports .................................................................................................... 32

      Section 5(a)(7)-8ummary of Each Particularly Significant Report ....................................................... 2,6

      Section 5(a)(8)-8tatistical Tables on Management Decisions on Questioned Costs ............................. 23

      Section 5(aj(9)-8tatistical Tables on Management Decisions on Recommendations
        That Funds Be Put to BetterUse ..................................................................................................... 22

      Section 5(a)( 10)-8ummary of Each Audit Report Over 6 Months Old for Which No
        Management Decision Has Been Made ........................................................................................... None

      Section 5(a)(11)-Description and Explanation for Any Significant Revised
        Management Decision ..................................................................................................................... None

      Section 5(a)(12)-Information on Any Significant Management Decisions With Which
        the Inspector General Disagrees ..................................................................................................... None

 Senate Report No. 96-829
      Resolution of Audits ............................................................................................................................ 21

      Delinquent Debts ................................................................................................................................. 56




                                                                                                                        Office of Inspector General 57
                                       Notes




58 Semiannual Report To The Congress
Notes




        Office of Inspector General 59
                                       tes




60 Semiannual Report To The Congress
Federal Recycling Program   0-   Printed on Recycled Paper
